AUDIT OF THE DEPARTMENT OF JUSTICE’S 

 IMPLEMENTATION OF AND COMPLIANCE 

    WITH CERTAIN CLASSIFICATION 

           REQUIREMENTS


         U.S. Department of Justice 

       Office of the Inspector General 

                Audit Division 


             Audit Report 13-40 

              September 2013

       AUDIT OF THE DEPARTMENT OF JUSTICE’S 

  IMPLEMENTATION OF AND COMPLIANCE WITH CERTAIN 

          CLASSIFICATION REQUIREMENTS 


                               EXECUTIVE SUMMARY


       In 2010, Congress passed Public Law 111-258, the Reducing
Over-Classification Act (Act), which, among other things, directed the
Inspector General of certain federal agencies, including the Department of
Justice (DOJ), to: (1) assess whether applicable classification policies,
procedures, rules, and regulations have been adopted, followed, and are
effectively administered within such department, agency, or component; and
(2) identify policies, procedures, rules, regulations, or management practices
that may be contributing to persistent misclassification of material within
such department, agency, or component. The Act requires the evaluation to
be completed by September 30, 2013. A second evaluation required by the
Act, which is due by September 30, 2016, will review DOJ’s progress in
implementing the recommendations of this audit.

Background

      The appropriate classification of information is critical to the
government’s efforts to ensure national security. However, the
9/11 Commission, Congress, and the White House have recognized that
over-classification of information interferes with accurate and actionable
information sharing, increases the cost of information security, and
needlessly limits stakeholder and public access to information.1

       When information is identified as posing a risk to national security, an
official with “Original Classification Authority” (OCA) designates the
information as classified, known as an original classification decision.2 OCA
officials convey their classification decisions by marking the original
document (or source document) or, more often, by capturing the

       1
          The National Archives and Records Administration’s (NARA) Information Security
Oversight Office developed the working definition of “over-classification” as the designation
of information as classified when the information does not meet one or more of the
standards for classification under section 1.1 of Executive Order (EO) 13526. In other
words, over-classification is either treating unclassified information as if it were classified, or
classifying information at a higher level of classification than is appropriate.
       2
          According to EO 13526, original classification authority is delegated by the
President and the Vice President and can be further delegated by an agency head or certain
other officials designated with original classification authority.



                                                 i
classification decision in a security classification guide. Once an OCA official
classifies information, that information may be paraphrased, extracted, or
summarized, which is known as a derivative classification decision. A
derivative classifier must observe and respect the original classification
decision and carry forward to any newly created document the pertinent
classification markings from the source document(s) or the security
classification guide.

       Within DOJ, the Security and Emergency Planning Staff (SEPS) is
responsible for implementing DOJ’s classification management program and
ensuring DOJ’s organizational compliance with classified national security
information laws, regulations, directives, and other guidance, as
appropriate.3 In addition, the Federal Bureau of Investigation’s (FBI)
National Security Branch and the Drug Enforcement Administration’s (DEA)
Office of National Security Intelligence are members of the Intelligence
Community and as such also are subject to the classification policies
established by the Office of the Director of National Intelligence (ODNI).
Finally, DOJ is required to establish and implement uniform security polices
and operational procedures for the classification, safeguarding, and
declassification of national security information.

Results in Brief

      We found that DOJ has established classification policies and
procedures, but has not effectively administered those policies and
procedures to ensure that information is classified and disseminated
appropriately. Although our review of a small sample of classified
documents created during fiscal year (FY) 2012 did not find indications of
widespread misclassification, we did identify deficiencies with the
implementation of DOJ’s classification program, including persistent
misunderstanding and lack of knowledge of certain classification processes
by officials within DOJ components.

       Based on these findings, we believe that the types of discrepancies we
identified and the causes of those discrepancies indicate that DOJ is
susceptible to misclassification.

       Specifically, we found several documents in which unclassified
information was inappropriately identified as being classified. We also
identified many documents that either did not contain required classification
markings or contained incorrect classification markings. Some of these

      3
          SEPS is a component of DOJ’s Justice Management Division.



                                            ii
marking errors included missing, incomplete, or incorrect classification
blocks, source references, portion markings, dissemination markings, and
declassification instructions. DOJ component officials generally agreed with
our findings that some information in certain documents should not have
been classified and that the markings on many documents were not
accurate.

      In addition, we found that the National Security Division, Criminal
Division, and the DEA incorrectly categorized many decisions to classify
information as “original” classification decisions when these decisions
actually were derivative classification decisions, as the classified information
in the documents had been classified previously. The risk inherent in this
practice is that individuals who inappropriately apply original decisions could
apply these decisions inconsistently for the same types of information and
information that should be treated similarly will be classified differently
across programs. Also, this practice could result in classifiers believing that
they could establish the classification levels, dissemination controls, or
declassification dates of their choosing rather than the ones previously
established by the actual original classification decision.

       We found several factors that we believe contributed to DOJ
components incorrectly classifying and marking documents, including
weaknesses in DOJ’s implementation classification standards, the limited
distribution of automated tools designed to improve the classification and
marking processes, and weaknesses in the application of security education
and training programs.

       Ensuring that information is classified and marked appropriately falls
within SEPS’s responsibilities for developing and managing DOJ policy for
classified national security information. With nearly 60,000 personnel
authorized to access and derivatively classify national security information,
SEPS’s responsibilities are significant. SEPS has developed oversight and
review processes for classified national security information, as directed by
EO 13526, which prescribes a uniform system for classifying, safeguarding,
and declassifying national security information. But SEPS has encountered
problems executing and overseeing those procedures, in part because of
insufficient resources devoted to these responsibilities and weaknesses in
infrastructure, training, and controls throughout DOJ.

      To help improve DOJ’s classification management program and
implementation of classification procedures, we made 14 recommendations
to SEPS. These recommendations include determining the classified
infrastructure enhancements that are needed to successfully use and share
appropriate types of classified information; enhancing DOJ’s classification


                                       iii
training programs to ensure that all personnel are aware of policies,
procedures, and requirements for classifying national security information;
and improving oversight practices to ensure that all DOJ components are
reporting accurate information in classification-related reports and are in
compliance with all regulatory requirements.




                                     iv
                   AUDIT OF THE DEPARTMENT OF JUSTICE’S 

              IMPLEMENTATION OF AND COMPLIANCE WITH CERTAIN 

                      CLASSIFICATION REQUIREMENTS 



                                        TABLE OF CONTENTS
INTRODUCTION .......................................................................................... 1

      Classified Information ...................................................................... 2 

      The Classification Process ................................................................. 3 

      Classification Marking Requirements .................................................... 5 

      DOJ’s Classification Structure ............................................................ 9 

      Prior Audits and Reviews .................................................................. 9 

      OIG Audit Approach ...................................................................... 11 

FINDINGS AND RECOMMENDATIONS........................................................ 13

I. DOJ CLASSIFICATION POLICIES, PROCESSES, AND PRACTICES .......... 13

      DOJ Original and Derivative Classifiers ............................................... 13 

      DOJ Security Classification Guides .................................................... 15 

      DOJ’s FY 2012 Classification Decisions ............................................... 22 

      Factors Contributing to Classification Deficiencies ................................. 33 

      Classification of Otherwise Unclassified Information .............................. 42 

      Recommendations ........................................................................ 43 

II. DOJ CLASSIFICATION OVERSIGHT AND MANAGEMENT........................ 45

      SEPS Classification Management and Oversight .................................... 45 

      Special Access Programs ................................................................ 46 

      Classification Program Reporting Requirements .................................... 47 

      Self-Inspections ........................................................................... 48 

      Oversight of Compromised Classified Information ................................. 49 

      DOJ Implementation of Regulatory Requirements ................................. 50 

      Recommendations ........................................................................ 51 

STATEMENT ON INTERNAL CONTROLS...................................................... 52

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ................ 53

APPENDIX I: AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY .............. 55

APPENDIX II: CLASSIFIED DOCUMENT MARKING REQUIREMENTS .......... 61

APPENDIX III: JUSTICE MANAGEMENT DIVISION’S RESPONSE TO THE 

              DRAFT REPORT ................................................................ 62

APPENDIX IV: OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND 

             SUMMARY OF ACTIONS NECESSARY TO CLOSE THE 

             REPORT ............................................................................ 69

This page intentionally left blank
                                  INTRODUCTION

       The appropriate classification of information is critical to the
government’s efforts to ensure national security. However, the
9/11 Commission, Congress, and the White House have recognized that the
over-classification of information interferes with accurate and actionable
information sharing, increases the cost of information security, and
needlessly limits stakeholder and public access to information.4 In 2010,
Congress passed Public Law 111-258, the Reducing Over-Classification Act,
requiring federal agencies that classify information to implement programs
that enforce compliance with applicable laws, executive orders, and other
authorities pertaining to the proper classification of information and use of
classification markings.

       Executive Order (EO) 13526, which is referred to in the Reducing
Over-Classification Act, prescribes a uniform system for classifying,
safeguarding, and declassifying national security information.5 The National
Archives and Records Administration’s (NARA) Information Security
Oversight Office is responsible for issuing directives for implementing
EO 13526 to all government agencies that come into possession of classified
information.6 In turn, DOJ is required to establish and implement uniform
security polices and operations procedures for the classification,
safeguarding, and declassification of national security information within the
Department. In addition, the Office of the Director of National
Intelligence (ODNI) is responsible for issuing implementation directives to
the Intelligence Community related to the protection of intelligence sources,
methods, and activities.7 Within the Department of Justice (DOJ), the
Federal Bureau of Investigation’s (FBI) National Security Branch and the
Drug Enforcement Administration’s (DEA) Office of National Security
Intelligence are members of the Intelligence Community and therefore must

       4
          The National Archives and Records Administration’s (NARA) Information Security
Oversight Office developed the working definition of “over-classification” as the designation
of information as classified when the information does not meet one or more of the
standards for classification under section 1.1 of EO 13526. In other words,
over-classification is either treating unclassified information as if it were classified, or
classifying it at a higher level of classification than is appropriate.
       5
           EO 13526, Classified National Security Information, December 29, 2009.
       6
        These directives are identified in the Federal Register as 32 CFR Part 2001 and
2003 Part V Classified National Security Information; Final Rule, June 28, 2010.
       7
       ODNI issues Intelligence Community policies and directives to the Intelligence
Community through the Intelligence Community Policy System as designated by EO 12333.


                                              1

abide by ODNI guidelines and directives in addition to those promulgated by
DOJ.

Classified Information

       EO 13526 mandates that information should be considered for
classification when its unauthorized disclosure could reasonably be expected
to cause identifiable damage to national security.8 Such national security
information may be classified as Top Secret, Secret, or Confidential, as
shown in Exhibit I-1.9 EO 13526 specifies that if significant doubt exists
about what level information should be classified at, the information should
be classified at the lower level.




       8
          Classified information is not the only information that is shielded from the public.
For instance, unclassified information that is law enforcement sensitive, information that is
subject to executive, deliberative, or attorney-client privilege, and personally identifiable
information, may all be withheld from the public under appropriate circumstances.
       9
           Classified information also may be identified as Sensitive Compartmented
Information (SCI). SCI is also referred to as "codeword" information. SCI is not a
classification level, but rather a requirement for formal access controls. SCI refers to
information associated with certain intelligence sources, methods, or analytical processes.
The sensitivity of SCI requires that it be protected in a much more controlled environment
than other classified information and requires handling exclusively within formal access
control systems.


                                               2

                                        EXHIBIT I-1 

                            CLASSIFICATION LEVELS 

                                   AND THE 

                         ASSOCIATED DEGREE OF DAMAGE 


                                 Top Secret – Unauthorized
                                 disclosure could cause
                                 exceptionally grave damage to
                                 national security.



                                 Secret - Unauthorized disclosure
                                 could cause serious damage to
                                 national security.




                                 Confidential - Unauthorized
                                 disclosure could cause damage to
                                 national security.

               Source: Executive Order 13526

The Classification Process

       When information is first identified as posing a risk to national security
if disclosed without authorization, an official with “Original Classification
Authority” (OCA) designates the information as classified.10 This initial
designation is referred to as the “original classification decision.” The
original classification decision must include a justification for why the
information needs to be classified based on eight categories prescribed in
EO 13526, the potential damage to national security, and the date the




      10
           According to EO 13526, original classification authority is delegated by the
President and the Vice President and can be further delegated by an agency head or certain
other officials designated with original classification authority.


                                            3

information shall be declassified.11 OCA officials convey their original
classification decisions either by marking the original document, or, more
often, by including their decision in a “security classification guide” that can
be used to assist in future decisions about whether to classify information in
other documents.

       Once an OCA official classifies specific information or issues a security
classification guide identifying information categories and the appropriate
classification levels, the information may be used by others in a derivative
form, such as through paraphrasing, direct quotation, or summarization.
When classified information is used in this manner by others after the initial
designation, it also requires classification, and the information receives what
is referred to as a “derivative classification decision.” When making a
derivative classification decision, the derivative classifier must observe and
respect the original classification decision and carry forward to any newly
created document the pertinent classification markings from the source
document or the security classification guide.

       Derivative classifiers are responsible for ensuring that the information
in the documents they produce is appropriately classified and properly
marked. Any individual with a current security clearance has the authority
to make derivative classification decisions in conjunction with their
performance of their official duties. Exhibit I-2 provides an overview of the
classification process.




       11
           Section 1.4 of EO 13526 prescribes the following eight categories for classified
national security information: (a) military plans, weapons systems, or operations;
(b) foreign government information; (c) intelligence activities (including covert action),
intelligence sources or methods, or cryptology; (d) foreign relations or foreign activities of
the U.S., including confidential sources; (e) scientific, technological, or economic matters
relating to the national security; (f) U.S. government programs for safeguarding nuclear
materials or facilities; (g) vulnerabilities or capabilities of systems, installations,
infrastructures, projects, plans, or protection services relating to the national security; and
(h) the development, production, or use of weapons of mass destruction.


                                               4

                                    EXHIBIT I-2 

              OVERVIEW OF THE CLASSIFICATION PROCESS





Source: Office of the Inspector General (OIG) Analysis of DOJ Documentation

Classification Marking Requirements

     A critical part of any uniform classification management program is to
ensure that standard markings or other indicia be applied to classified

                                           5

information to identify the level of classification. In addition, federal
agencies have a system of restrictive caveats and associated dissemination
control and handling markings that can be added to a document. These
markings, which are defined in classification marking guides, provide
instruction on how to control and handle the dissemination of classified
information. For instance, control markings might indicate that information
may not be disseminated to a non-U.S. person and should include the
marking, Not Releasable to Foreign Nationals (NOFORN).

       To help standardize the marking of classified information throughout
the U.S. government, NARA’s Information Security Oversight Office has
issued classification guidance and a booklet containing instructions for
marking classified national security information. The NARA Information
Security Oversight Office’s Marking Classified National Security Information
booklet is the baseline marking system that federal agencies are required to
use to mark classified information. The booklet briefly describes how
classified documents should be marked, although it also acknowledges that
its guidance cannot anticipate every conceivable situation.

       To supplement the Information Security Oversight Office’s Marking
Classified National Security Information booklet, ODNI established the
Intelligence Community Authorized Classification and Control Marking
Manual (Manual) through its Controlled Access Program Coordination Office
(CAPCO). The CAPCO Manual, which is longer and more detailed than the
Information Security Oversight Office’s Marking Classified National Security
Information booklet, prescribes a standard set of markings to be applied to
classified documents and information created within the Intelligence
Community, including agency-specific markings. In addition to classification
markings, the CAPCO Manual includes instructions for the Intelligence
Community on using markings to communicate the nature of the
information, as well as dissemination control markings that indicate how and
with whom the information should be shared. Unlike the Information
Security Oversight Office’s Marking Classified National Security Information
booklet, which applies to all federal agencies, the CAPCO Manual only applies
to members of the Intelligence Community and agencies that have an
established written agreement with the Intelligence Community. Inside of
DOJ, the CAPCO Manual only applies to those sections of DEA and FBI that
are recognized members of the Intelligence Community.

       Original and derivative classifiers are required to refer to these
classification marking guides to ensure that national security information is
appropriately marked, which in turn helps ensure the proper dissemination
and protection of classified information. The following exhibit identifies the
primary classification and control markings that should be identified on all

                                       6

classified documents.12 These classification marking requirements are for all
classified information whether it is in a hard copy document, an e-mail, or
another electronic form.




     12
          Appendix II provides a sample document that displays these required markings.


                                            7

                                       EXHIBIT I-3 

                   Classified Document Marking Requirements

    Marking
                        Original Classification           Derivative Classification
  Requirement
  Overall           The overall classification level must be included in a banner at the
  Classification    top and bottom of every classified document and indicate the
  Marking           highest level of classification within any portion of the document.

  Classification    Classified By: Identifies the       Classified By: Identifies the
  Block             Original Classification Authority   derivative classifier by name and
                    by name and position or personal    position or by personal identifier
                    identifier, and the agency and      and the derivative classifier’s
                    office of origin.                   agency and office.

                    Reason: Identifies at least one     Derived From: Lists the source
                    of eight categories of classified   document(s) or the security
                    information from EO 13526           classification guide relied upon
                    1.4(a-h)                            for the classification, and the
                                                        agency or office and date of the
                                                        source or guide.

                    Declassify On: Lists date or        Declassify On: Must carry
                    event by which classified           forward the declassification
                    information can be declassified.    instruction from the source
                                                        document(s) or classification
                                                        guide.

  Portion           All portions of the document        All portions of the document
  Markings13        must be separately and properly     must be separately and properly
                    marked with the classification of   marked with the classification
                    that portion. The portion           carried over from the source
                    marking precedes the portion to     document(s) or security
                    which it applies.                   classification guide(s) to the
                                                        derivatively classified document.
                                                        The portion marking precedes
                                                        the portion to which it applies.

                                  Additional Markings
  Dissemination     Dissemination control markings are used to indicate restrictions on
  Control           who may have access to the information. If dissemination control
  Markings          markings are necessary, they must be included in the overall
  (if necessary)    marking of the document and within each portion to which they
                    apply. The Intelligence Community requires its member agencies to
                    include dissemination control markings on all pieces of information.

    Source: OIG Analysis of DOJ Documentation


       13
          Portions may include sections, parts, paragraphs, sub-paragraphs, subjects, titles,
graphics, tables, and bullets within a document.


                                              8
DOJ’s Classification Structure

       Federal government organizations that create or hold classified
information are responsible for its proper management. Classification
management includes various activities, such as developing classification
guides, conducting comprehensive mandatory training for classifiers, and
implementing a robust self-inspection program. Within DOJ, the Director of
the Security and Emergency Planning Staff (SEPS) in DOJ’s Justice
Management Division is the designated Department Security Officer. SEPS
is responsible for implementing DOJ’s classification management program
and ensuring DOJ’s organizational compliance with classification
requirements pursuant to national security information laws, regulations,
directives, and other guidance from NARA’s Information Security Oversight
Office and ODNI, as appropriate. SEPS established the Security Program
Operating Manual (SPOM), which prescribes uniform security policies and
operating procedures for the protection of classified national security
information within DOJ.

       SEPS relies on a Security Programs Manager in each DOJ component
to implement and manage security policies and procedures within the
component, including policies and procedures relating to the classification
and security of national security information. Security Programs Managers
are accountable to the Department Security Officer for matters related to the
management and coordination of all security programs and plans within their
respective organizations. In general, Security Programs Managers are
responsible for administering education and training programs, overseeing
physical and classification security procedures, supervising annual
self-inspections, initiating risk assessments, coordinating security clearances
for personnel, and reporting and resolving security violations for their
respective agencies. The Security Programs Managers are the security
experts for DOJ components and serve as the first line of reference for
personnel who have questions related to the classification and security of
national security information.

Prior Audits and Reviews

      In 2004 and 2006, NARA’s Information Security Oversight Office
conducted on-site inspections of DOJ classification and security practices and
found that improvements were needed in program management and
organization, security education and training, classification guidance,
tracking security violations, self-inspections, and the marking of classified
documents. NARA’s Information Security Oversight Office determined that
DOJ needed to take corrective action to improve essential classification and
security policies and procedures, including increasing resources to oversee

                                      9

DOJ’s classified national security information program. In addition, NARA’s
Information Security Oversight Office conducted reviews of the DEA and FBI
classification programs in 2006 and 2009, respectively. These reviews
identified classified document discrepancies, including over-classified
information, missing or improper portion markings, improper use of original
classification authority, incorrect declassification instructions, and
information not properly referenced to source documents.

       In 2006, the Government Accountability Office (GAO) also reviewed
DOJ’s management of classified information.14 This review included an
assessment of DOJ’s implementation of NARA’s Information Security
Oversight Office on-site inspection recommendations. GAO reported that
DOJ did not know the optimum number of staff it needed for its classification
program because it had not assessed its needs and did not have a strategy
to identify how it would use additional resources to address classification
program deficiencies. GAO found that, as a result of these resource issues,
DOJ had not fully implemented various recommendations from NARA’s
Information Security Oversight Office and DOJ’s ability to oversee
classification practices across components was insufficient.

       The Office of the Inspector General (OIG) reviewed personnel security
processes throughout DOJ and issued reports in September 2012 and
March 2013 that included recommendations to increase resources devoted to
certain security program issues.15 These reports found that SEPS did not
implement adequate personnel security processes to identify security
violations and enforce security policies. Moreover, SEPS issued minimal
guidance for components to follow in managing their contractor security
programs and the guidance does not provide standards for maintaining
accurate rosters on contract employees or periodic reinvestigations. The
OIG made a total of 17 recommendations in these 2 reports to improve
DOJ’s timeliness in processing background investigations and adjudications,
ensure that only individuals with the appropriate clearance level have access
to sensitive and classified information, and improve DOJ’s management of its
personnel security process for contractors. These recommendations
included increasing the amount of SEPS staff dedicated to conducting

       14
          U.S. Government Accountability Office, Managing Sensitive Information: DOJ
Needs a More Complete Staffing Strategy for Managing Classified Information and a Set of
Internal Controls for Other Sensitive Information. GAO-07-83 (October 2006).
       15
          U.S. Department of Justice, Office of the Inspector General (OIG), Department’s
and Component’s Personnel Security Processes. I-2012-003 (September 2012) and OIG,
Review of the Department’s Contractor Personnel Security Process. I-2013-003
(March 2013).


                                            10 

security compliance reviews. Although SEPS concurred with this
recommendation, at the time of the report SEPS was uncertain when it
would be able allocate additional resources to compliance review efforts due
to the fiscally conservative environment and the current DOJ hiring freeze.

OIG Audit Approach

       Pursuant to Section 6(b) of the Reducing Over-Classification Act, the
Inspector General of any Department with an official with original
classification authority, which includes DOJ, must conduct two evaluations
to: (1) assess whether applicable classification policies, procedures, rules,
and regulations have been adopted, followed, and are effectively
administered within such department, agency, or component; and
(2) identify policies, procedures, rules, regulations, or management practices
that may be contributing to persistent misclassification of material within
such department, agency, or component. The Reducing Over-Classification
Act requires the first evaluation to be completed by September 30, 2013,
which this audit report satisfies. The second evaluation, which is due by
September 30, 2016, will review DOJ’s progress implementing the
recommendations of this audit.

       Section 6(b) of the Reducing Over-Classification Act also requires
individual Inspectors General coordinate to ensure that the evaluations
follow a consistent methodology. In accordance with this requirement, the
ODNI Office of the Inspector General and the Department of Defense Office
of the Inspector General established an Inspectors General Working Group
to develop a standardized approach for the first evaluation. We participated
in the Inspectors General Working Group and used the standardized
evaluation guide during the course of our review. However, the DOJ OIG’s
audit focused exclusively within DOJ, and we have not conducted any
cross-agency comparisons of classification policies and practices. We are
therefore unable to assess whether different agencies treat the same
information the same way.

      During this audit, we conducted over 100 interviews with officials from
SEPS, the FBI, the DEA, the Criminal Division, the National Security Division,
and the United States Marshals Service (USMS).16 In addition, we reviewed
10 security classification guides and a sample of 141 classified documents
created during fiscal year (FY) 2012 comprised of finished reports,
memoranda, legal documents, summary reports, e-mails, case file
documents, Intelligence Information Reports (IIR), and DEA Analysis

      16
           For more information about our audit scope and methodology, see Appendix I.


                                            11 

Reports. During our review, we also reviewed classified information from
programs that require special access controls.17

       The results of our review are detailed in Findings I and II. Finding I
provides the results of the OIG’s evaluation of DOJ’s classification policies,
processes, and practices, including a review of DOJ’s classified national
security information decisions and its use of classification management tools.
Finding II provides our analysis of DOJ’s management and oversight of the
classification program, including an overview of DOJ’s implementation of
statutory and regulatory requirements.




       17
          Due to the sensitivity of the classified information related to these programs, the
responsible component instituted special access controls, including logging the individuals
who are granted access, providing these individuals a “read-on briefing” to present
background information on the program, and requiring the individuals to sign a
non-disclosure agreement.


                                             12 

                  FINDINGS AND RECOMMENDATIONS 


I.     DOJ CLASSIFICATION POLICIES, PROCESSES, AND PRACTICES

       DOJ has established classification policies and procedures, but
       has not effectively administered those policies and procedures to
       ensure that information is classified and disseminated
       appropriately. Although our review of a small sample of
       documents did not find indications of widespread
       misclassification, we did identify deficiencies with the
       implementation of DOJ’s classification program, including
       persistent misunderstanding and lack of knowledge of certain
       classification processes by officials within various DOJ
       components. We also found various classification marking errors
       throughout the classified documents we reviewed. These
       marking errors stemmed from reliance on historical practices and
       had been overlooked because of inadequate training and
       oversight. We believe that DOJ could improve its classification
       program by enhancing security classification and marking guides
       to better explain why and how information is classified, and by
       using existing automated tools to improve classification and
       marking practices. Moreover, we believe that SEPS should work
       with component Security Programs Managers to improve
       personnel training on classification requirements, procedures,
       and guidance.

DOJ Original and Derivative Classifiers

       The act of original classification requires that an OCA official identify
the elements of information regarding a specific subject that must be
classified, describe the damage to national security that could reasonably be
expected if the information is disclosed, determine how long that information
needs to be protected, and document these decisions in a security
classification guide or to the original (source) document.18 Derivative
classifiers must interpret the OCA guidance from the classification guide or
from various source documents and determine how to mark classified
products they produce.

       Pursuant to EO 13526, the President has delegated original
classification authority to the Attorney General, who has further delegated
       18
          An element of information is a specific piece of information related to an overall
subject area that an OCA official has determined meet the requirements for classification.


                                             13 

original classification authority to 63 DOJ officials from 13 components. In
addition, DOJ has nearly 60,000 personnel that hold security clearances and
are therefore eligible to derivatively classify information in the performance
of their duties. Exhibit 1-1 identifies the number of DOJ personnel by
component with authority to make original classification decisions, as well as
those who can derivatively classify information.

                                     EXHIBIT 1-1
                        DOJ Officials with Original and
                       Derivative Classification Authority
                                as of April 2013
                                                               OCA         Derivative
  DOJ Component
                                                               Officials   Classifiers
  Office of the Attorney General                               2           17
  Office of the Deputy Attorney General                        3           45
  Office of the Associate Attorney General                     1           8
  Office of the Inspector General                              1           421
  Antitrust Division                                           1           79
  Bureau of Alcohol, Tobacco, Firearms, and Explosives         1           4,224
  Criminal Division                                            7           749
  Drug Enforcement Administration                              20          7,160
  Federal Bureau of Investigation                              17          35,951
  Federal Bureau of Prisons                                    1           14
  Justice Management Division                                  2           524
  National Security Division                                   7           364
  U.S. Marshals Service                                        1           3,096
  All Other DOJ Components19                                   0           5,327
  TOTAL                                                        64          57,97920
 Source: SEPS

      According to EO 13526, the delegations of OCA officials shall be limited
to the minimum required to ensure the consistency and integrity of classified
national security information, and agency heads are responsible for ensuring
that designated subordinate officials have a demonstrable and continuing
need to exercise this authority. To ensure that DOJ had the appropriate

      19
         According to the list provided by SEPS, there were 28 DOJ components that
comprised the “all other DOJ components” category as of April 2013.
      20
           These figures were obtained from SEPS and represent the number of people in its
database of security clearance holders. This figure only includes full-time DOJ employees
and does not include DOJ contractors who have security clearances and are able to
derivatively classify information. We did not verify these figures with each component and
they were not used in the development of our conclusions or recommendations.


                                           14 

number of OCA officials, DOJ conducted a Department-wide evaluation
between fiscal years (FY) 2011 and 2012. SEPS directed each component to
determine which positions require original classification authority and to
reduce the number, if possible. SEPS concluded its review in July 2012 and
proposed to reduce the number of DOJ OCA officials by 38, from 102 to 64.
The Attorney General approved these changes in April 2013.

       The OIG found that DOJ’s reduction of OCA officials was the result of
the FBI reducing its number of OCA officials from 55 in FY 2012 to 17 in
FY 2013. During this initiative, the Criminal Division, the National Security
Division, and the DEA did not reduce the number of authorized OCA officials.
Although the DEA previously reduced its number of positions with original
classification authority in 2007, the DEA maintained its level of 20 OCA
officials from FY 2012 to FY 2013 even though only 7 of these 20 OCA
officials made “original classification decisions” in FY 2012. In addition,
although the National Security Division did not reduce the number of OCA
officials during the SEPS review, National Security Division officials informed
the OIG that the number of OCA officials could be decreased by at least one.

       Based on our review of types of information classified within DOJ, we
believe that the frequency in which information is classified in the first
instance should be extremely rare. Therefore, having more individuals with
original classification could contribute to information being classified at
different levels and retained for varying periods of time. As a result, we
believe that the number of OCA officials within DOJ could be further reduced,
particularly at the DEA, which has the highest ratio of DCA officials to OCA
officials at 358 to 1, as illustrated in Exhibit 1-1. In comparison, the FBI, the
largest component within DOJ, has a DCA-to-OCA ratio of 2,115 to 1, and
the DOJ-wide ratio is 905 to 1. We recommend that SEPS, in conjunction
with the components, re-evaluate the number and types of positions that
require original classification authority to ensure compliance with EO 13526.

DOJ Security Classification Guides

       Security classification guides contain original classification decisions
and provide derivative classifiers with a set of instructions from an OCA
official to use when making derivative classification decisions. Security
classification guides identify predetermined classification decisions on
various topics of program-specific information, the classification level of that
information, the nature of the risk to national security, the length of time the
information should remain classified, and the reason for classification, which
identifies the specific category of national security information from
Section 1.4 of EO 13526 into which the information falls. As an example,


                                       15 

Exhibit 1-2 includes an excerpt from the DOJ’s National Security Information
Security Classification Guide.

                                      EXHIBIT 1-2 

            Example of a DOJ Security Classification Guide Element 

Item                                          Classification    Declassify     Classification
             Category of Information
 No.                                              Level            On            Reason21
  2    Individually unclassified or            Confidential     +25 years        1.4 (c), (g)
       controlled unclassified data items
       that the compilation would
       provide insight into DOJ’s
       functions, staffing, activities,
       capabilities, vulnerabilities, or
       intelligence sources and methods.
 Source: DOJ National Security Information Security Classification Guide

      In FY 2012, DOJ had ten approved security classification guides: one
comprehensive guide established by SEPS for Department-wide use and nine
additional guides created by the FBI, DEA, Criminal Division, and USMS for
use by the individual components. The SPOM requires DOJ components to
submit initial and updated security classification guides to the Department
Security Officer for approval. The following exhibit provides the number of
SEPS-approved DOJ security classification guides by component as of
July 2013.

                                      EXHIBIT 1-3
                 Approved DOJ Security Classification Guides
                             as of June 2013
                                                       Approved
                             DOJ                        Security
                          Component                  Classification
                                                         Guides
                   SEPS/Department-wide                     1
                      Criminal Division                     1
                            DEA                             1
                            FBI                             6
                           USMS                             1
                           Total                           10
                      Source: SEPS




       21
            See footnote 11 for the eight approved classification categories that correspond to
classification reason codes.


                                              16
       In general, we found that all security classification guides in use
throughout DOJ met the minimum requirements established by SEPS,
including, but not limited to, identifying the types and specific topics of
information deemed classified and identifying reasons for classifying the
information, the level at which the information should be classified, and the
duration of the classification. However, we also found that DOJ had not
sufficiently coordinated the creation of security classification guides and that
some of the security classification guides used throughout DOJ could benefit
from additional clarification on specific details to optimally ensure that
derivative classifiers of DOJ information could make informed and accurate
classification decisions. These issues are discussed further below.

Creation of Security Classification Guides

       In 2008, ODNI issued a report on classification guidance stating that a
critical component of effective intelligence collaboration and information
sharing is a common understanding of information classification standards
and policies.22 The report further noted that inconsistent interpretation and
application of the classification levels defined by agencies can result in
uneven guidance, misunderstanding, and a lack of trust between Intelligence
Community agencies and mission partners concerning the proper handling
and protection of information. Moreover, the report cited variations and
conflicts among classification guidance as having the potential to slow or
prevent critical information sharing among agencies, governments, and
other national security partners.

      During our review, we found that the creation of security classification
guides was not well coordinated by SEPS, component Security Programs
Managers, and other officials responsible for overseeing component-level
programs that routinely handle mission-specific national security
information. SEPS established the DOJ National Security Information
Security Classification Guide, which was intended for Department-wide use.
In developing the guide, SEPS relied upon component Security Programs
Managers to consult others within their components to ensure the guide
appropriately accounted for the types of information that would be
encountered by derivative classifiers using the guide. However, we found
that some component Security Programs Managers did not confer with
pertinent offices during the review and acceptance of the content. Further,
some DOJ components created additional security classification guides for



      22
       ODNI, Intelligence Community Classification Guidance Findings and
Recommendations Report, January 2008.


                                         17 

their programmatic use without fully coordinating with SEPS or, in at least
one instance, with other affected components.

      Specifically, the DOJ National Security Information Security
Classification Guide includes guidance related to Foreign Intelligence
Surveillance Act (FISA) processes. Yet according to some National Security
Division officials interviewed, the National Security Division, which performs
various FISA-related activities, was not involved in the development of this
guidance, and as of May 2013, National Security Division officials, including
attorneys who work with FISA-related information, were unaware that this
guidance existed. During interviews with the OIG, SEPS and National
Security Division officials acknowledged this discrepancy and agreed that the
National Security Division should work with SEPS to incorporate into the DOJ
National Security Information Security Classification Guide all relevant
requirements, policy decisions, and processes related to classified national
security information in the National Security Division or specifically related to
FISA processes. In addition, the National Security Division has taken steps
to improve its employees’ awareness of the DOJ National Security
Information Classification Guide by including a link to the guide on National
Security Division intranet site.

       We also found that the USMS established a security classification guide
in FY 2012, the USMS Operations and Capabilities Security Classification
Guide, that contains many of the same national security information already
identified in the DOJ National Security Information Security Classification
Guide. As a result, SEPS officials told us that, in their opinion, it was
unnecessary for the USMS to have its own security classification guide.
According to USMS officials in charge of producing the USMS guide, SEPS did
not inform them and they did not inquire about the possibility of
incorporating national security information specific to the USMS into the DOJ
National Security Information Security Classification Guide. Nevertheless,
USMS officials agreed that its guide could be integrated into the DOJ
National Security Information Security Classification Guide. Following our
inquiries, SEPS informed us that as of July 2013 the USMS’s security
classification guide was not being utilized nor was it approved for use within
the USMS. In August 2013, SEPS and the USMS began coordinating to
integrate the USMS’s needs into the DOJ-wide guide and ensure that the
DOJ National Security Information Security Classification Guide is utilized
effectively within the USMS.

       In addition, we found that the Criminal Division created a security
classification guide in July 2012 for classifying and handling information for a
joint program the Criminal Division administers with the DEA, but that
despite sharing original classification authority over the relevant information

                                       18 

with DEA officials, the Criminal Division did not actively involve the DEA
when creating the guide. As a result, the DEA declined to use the Criminal
Division’s security classification guide because it did not adequately address
all of DEA’s needs and issues. Moreover, one DEA official told us that the
DEA would probably develop its own, parallel classification guide for the
program.

       According to SEPS officials, when the Criminal Division first created the
security classification guide, officials were instructed to ensure that all
participants in the program were included in making the classification
decisions and establishing instructions for classifying national security
information within the guide. Nevertheless, SEPS approved the security
classification guide without verifying with the DEA that all necessary
requirements and instances of national security information were
incorporated.

       At the audit close-out meeting, SEPS officials reiterated to the OIG
that they relied upon DOJ components’ Security Programs Managers to
coordinate with all OCA officials, subject matter experts, and any other
agency affected by the creation of security classification guides. Moreover,
SEPS officials stated that SEPS’s approval of DOJ component’s security
classification guides is basically an “administrative action” because SEPS
does not have the subject matter expertise with regard to specific program
classification requirements. SEPS only reviews the security classification
guides for basic form and function. Therefore, SEPS officials believe that
DOJ component’s OCA officials and Security Programs Managers should be
accountable for the content of the information in program-specific DOJ
security classification guides.

      We agree with SEPS’s assessment that DOJ components’ Security
Programs Managers should be held accountable for consulting with all
interested parties to ensure that the content of security classification guides
is accurate and useful for all purposes. However, we attribute the lack of
coordination on security classification guides to a general unfamiliarity in
DOJ with the purpose and importance of security classification guides. We
also believe that SEPS has a responsibility to ensure that the Security
Programs Managers and OCA officials understand the importance of
consistent, comprehensive, and accurate security classification guides.

      As recognized by ODNI in its 2008 report, we believe that fewer
security classification guides would help ensure consistency of classification
decisions across DOJ, as the development of separate security classification
guides regarding the same classified information can lead to different, and
potentially conflicting, marking and handling requirements for the same

                                      19 

classified information, thereby increasing the risk of marking and handling
errors and complicates users’ efforts to comply with the guides. We
therefore recommend that SEPS should ensure that DOJ components are
aware of and understand how to use security classification guides.
Moreover, to increase efficiency and classification accuracy, we recommend
that SEPS review all DOJ security classification guides and work with DOJ
component Security Programs Managers and OCA officials to identify and
reduce redundancies.

Security Classification Guide Assessment

       During our review of DOJ’s ten security classification guides, we found
that some of these guides did not provide adequate instruction on when and
at what level to classify information. For instance, as shown in Exhibit 1-2
the DOJ National Security Information Security Classification Guide instructs
users to classify as confidential the following: “individually unclassified or
controlled unclassified data items that the compilation would provide insight
into DOJ’s functions, staffing, activities, capabilities, vulnerabilities, or
intelligence sources and methods.” However, the security classification
guide does not explain what types of unclassified or controlled unclassified
data items, if combined, would result in classification. We also found that
some of the security classification guides identified national security
information and then instructed the classifier that the classification of this
information could range from unclassified to Top Secret without fully
explaining the circumstances that would cause the level of classification of
the information to escalate from one level to another. Insufficient,
ambiguous, and over-broad explanations such as these provide inadequate
guidance to derivative classifiers and could result in the misclassification of
information.

       We also found that the DEA National Security Information Security
Classification Guide contained inconsistent internal elements that identify
different ways to classify the same information. For instance, the DEA
National Security Information Security Classification Guide identifies two
elements associated with foreign government information provided in
confidence and identifies in one element that the information should be
identified as unclassified law enforcement sensitive information, while the
other element instructs users that the information should be classified as
Secret. No guidance is offered about the different circumstances that would
cause a derivative classifier to apply one instruction as opposed to the other.
We believe that these ambiguous and seemingly contradictory instructions
are likely to result in a derivative classifier marking Secret information as
“Unclassified, law enforcement sensitive,” or marking unclassified
information as Secret.

                                      20 

      We found that the FBI’s security classification guides often provided
the best explanations regarding the circumstances that would require the
specific classification of information. For example, the FBI National Security
Information Classification Guide contains almost two pages and three
separate line items devoted to the appropriate classification of case numbers
and other case-specific identifying information. This section of the FBI guide
contains explicit instructions and examples for FBI employees, such as:

      	    “The fact that a numeric and alpha designation, such as 134A or
            315H, is or could be an FBI case file number.” The FBI guide
            then provides two specific examples, including: “An agent calls
            his supervisor and tells him/her ‘I’m working a 415J matter’
            would be unclassified.”

      	    “Association of case file number with specific threat countries
            and/or organizations in a national security program” is to be
            classified Secret and the guide goes on to provide four additional
            instructions (similar to the bullet above) and an explanation why
            the information is sensitive and needs to protected.

       By contrast, the DOJ National Security Information Security
Classification Guide states that information providing “specific details of
relationships between DOJ and members of the Intelligence Community”
should be classified at the Secret level. However, the DOJ guide does not
provide a definition or examples of the “specific details” that warrant
classification or the potential damage if the information were released. We
believe that specific instructions for derivative classifiers, similar to those
provided in the FBI guide, are likely to reduce instances of misclassification
and mishandling of national security information.

       According to SEPS officials, DOJ personnel who use a security
classification guide should have a basic understanding of what type of
information must be classified and also have a responsibility to contact their
Security Programs Managers to request clarification and additional guidance
when needed. Nevertheless, DOJ officials who are considered classification
subject matter experts told us that DOJ should clarify and refine instructions
in its security classification guides to reduce the likelihood of confusion and
misunderstanding among derivative classifiers. We agree, and we
recommend that SEPS review all DOJ security classification guides to ensure
that instructions are clear, precise, consistent, and provide derivative
classifiers with sufficient information to make accurate classification
decisions.


                                       21 

DOJ’s FY 2012 Classification Decisions

       In FY 2012, DOJ components with OCA officials reported a total of
4,689 original classification decisions and over 8 million derivative
classification decisions, as shown in Exhibit 1-4.23

                                       EXHIBIT 1-4 

                        FY 2012 Classification Decisions24

                                                                Original        Derivative
 DOJ Component                                               Classification    Classification
                                                               Decisions         Decisions
 Bureau of Alcohol, Tobacco, Firearms, and Explosives              0                105
 Criminal Division                                                603               231
 Drug Enforcement Administration                                  849             80,953
 Federal Bureau of Investigation                                   4             8,355,880
 Justice Management Division                                       0                 54
 National Security Division                                      3,232              280
 Office of the Inspector General25                                 0                185
 U.S. Marshals Service                                             1                  0
 Total                                                           4,689          8,437,688
 Source: SEPS

      We reviewed a judgmental sample of 25 original classification
decisions from the National Security Division, Criminal Division, and DEA and
116 derivative classification decisions from the National Security Division,
Criminal Division, FBI, and DEA.26 Our review identified several
discrepancies, including incorrect designations of decisions as “original”

       23
            Classification decisions include all actions in which an OCA official initially
determines that information should be classified and each time derivative classifiers
incorporate, paraphrase, restate, or generate in a new form, information that is already
classified.
       24
           This chart only reflects DOJ components with at least one OCA official that made
at least one original or derivative classification decision during FY 2012.
       25
          Although the OIG reported derivative classification decisions during our audit
period, we excluded the OIG from our review to avoid a conflict of interest.
       26
            The OIG judgmentally selected a sample of classified documents with the intent of
obtaining broad exposure to the classified work performed within DOJ components during
FY 2012 and we focused our review on the four components with substantial numbers of
classification activity during FY 2012. The FBI only made four original classification
decisions in FY 2012 and all four of these decisions were the creation of security
classification guides. Because we assessed the adequacy of security classification guides
separately, we did not include these documents in our testing of original classification
decisions. A more detailed description of our sample selection methodology for each
component is in Appendix I.


                                              22 

classification decisions, information that had been inappropriately identified
as classified (over-classification), improper use of a dissemination control,
and unmarked or incorrectly marked documents containing classified
national security information.

Original Classification Designations

       We found that the National Security Division, Criminal Division, and
the DEA incorrectly designated classified information as “original”
classification decisions. The documents we reviewed that were identified as
containing original classification decisions in fact contained information that
previously had been identified as classified in at least one source document
or in a security classification guide. Therefore, these decisions should have
been identified as derivative classification decisions, not original
classification decisions. Based on interviews with component officials, we
found that each of these DOJ components had a different process and
reason for designating the classification as original decisions instead of
derivative decisions.

       National Security Division – Among its other responsibilities, the
National Security Division processes applications for FISA warrants. During
our review, we found that the National Security Division categorized the
classification of all FISA applications and all FISA-related documents as
original classification decisions. Yet we found that the National Security
Division was creating these documents, in part, using classified national
security information submitted by other government agencies. Moreover,
according to National Security Division officials, all applications for FISA
authorities are classified at least at the Secret level.27 National Security
Division officials explained that historically DOJ has applied original
classification decisions to applications and other FISA-related pleadings
before the Foreign Intelligence Surveillance Court (FISA Court). National
Security Division officials believe that this practice emerged because even
though much of the information in the FISA documents are supplied by the
Intelligence Community, DOJ represents the United States before the FISA
Court and is responsible for the form of the information provided in FISA
applications and related documents. This policy determination, which
established a National Security Division-wide protocol for classifying
FISA-specific information, represented an original classification decision, and
the subsequent classification of any information meeting the criteria of this
decision is therefore a derivative classification decision. Consequently, the
       27
            This classification meets the requirements of Section 1.4 of EO 13526, which
includes intelligence sources or methods as a category of information that shall be
classified.


                                             23 

National Security Division erred by categorizing the documents we reviewed
as original classification decisions.

       National Security Division officials, including an OCA official, agreed
that the National Security Division’s FISA-related information that had been
identified as original classification decisions could more accurately be
identified as derivative classification decisions. However, some of the
National Security Division officials were unfamiliar with the derivative
classification process, despite generally following derivative classification
procedures by carrying over classification markings from source documents.
National Security Division officials also told us they were apprehensive about
fully implementing the derivative classification process because they
believed it would slow down the National Security Division’s processes
related to its FISA work. Nevertheless, the National Security Division’s
Director for Security stated that the National Security Division would begin
to implement derivative classification procedures and agreed that they would
work with SEPS to update the Department’s classification guide to help
implement such a change. We expect that when the National Security
Division implements this change in procedure, its reported number of
original classification decisions, as illustrated in Exhibit 1-4, will decrease
significantly.

      Criminal Division – The Criminal Division develops, enforces, and
supervises the application of federal criminal laws in coordination with other
government agencies, including DOJ components. We reviewed Criminal
Division documents containing classification decisions categorized as original
decisions by an OCA official and found that all of these documents did not
meet the criteria for an original classification decision because the classified
information in each of the documents had been incorporated previously into
a security classification guide created specifically for the Criminal Division’s
limited-access classified program.

      When the OIG asked this official why he had not derivatively classified
the information using the security classification guide that he created, the
OCA official stated that he was unsure of the difference between original and
derivative classification decisions, and that he believed that by classifying
the document as an original decision he could better control who received
the information and how the information was used. However, this practice
obviates the benefits of a classification guide and creates the potential for
setting inconsistent declassification dates.

      Although this OCA official had received classification training and
worked directly with SEPS on the creation of the security classification guide,
the official continued to use improper classification processes. After our

                                       24 

identification of the issue, Criminal Division and SEPS officials met and
agreed that it was appropriate to classify the information derivatively using
the security classification guide. We believe that when the Criminal Division
implements this change in practice, its reported number of original
classification decisions, as illustrated in Exhibit 1-4, will decrease
significantly.

       Drug Enforcement Administration – As part of its mission, DEA is
responsible for enforcing the controlled substances laws and regulations of
the United States, as well as recommending and supporting
non-enforcement programs aimed at reducing the availability of illicit
controlled substances domestically and internationally. We found that the
DEA was improperly classifying documents using original classification
authority when the information in these documents previously had been
classified in a security classification guide. A DEA official stated that he
believed information was better protected from widespread dissemination
when the classifier used original classification decisions rather than
derivative classification decisions. However, this OCA official also
acknowledged that the DEA’s information did not fit the criteria for an
“original” classification decision, although he expressed uncertainty when
asked whether the DEA would revise its processes for classifying the
information.

       In its 2006 review of the DEA, NARA’s Information Security Oversight
Office identified this same discrepancy. NARA’s Information Security
Oversight Office briefed the DEA on the proper process for classifying
previously identified classified information and informed the DEA that it
should include the information in a security classification guide. The DEA
responded to the NARA review on May 8, 2007. In its response, the DEA
acknowledged that it was incorrectly making original classification decisions
and informed NARA’s Information Security Oversight Office that the DEA’s
two major producers of classified documents were engaged in producing
local classification guides that would be used to supplement a DEA
classification guide that was in draft at the time. The DEA anticipated that
its actions would result in an increase of the number of derivative
classification decisions versus the number of original classification decisions
currently being made by the DEA. According to the DEA, its original
classification decisions were reduced by 85 percent in FY 2012 as compared
to the previous 3 years. However, despite the DEA’s efforts, our review
found that the DEA continues to improperly use original classification
decisions, as explained above.

      We believe the DEA should revise its classification processes and
practices to comply with DOJ security and classification procedure

                                      25 

requirements. We also believe that, if the DEA corrects its process for
classifying information, its reported number of reported original classification
decisions, as reflected in Exhibit 1-4, will decrease significantly.

       Originally classifying information that was previously classified can
inadvertently alter the dissemination controls or extend the declassification
period. For instance, if an OCA official takes information from a source
document that has a declassification date set for 25 years from 2002 and
creates a new document that is categorized as an original classification
decision, the OCA official can extend the declassification date to 25 years
from the date the new document was created, resulting in inconsistent
declassification dates for the same information. Moreover, because
originally classified documents do not identify any source materials, there is
no way to trace the information in the new, originally classified document
back to the previously classified document to ensure that all markings are
identical, raising the possibility of inconsistent handling instructions for the
same information. Incorrectly applying OCA classification markings can also
increase the risk that the same information would be classified differently
across programs because different OCA officials could, in theory, reach
different conclusions about the appropriate classification of the same
information. Additionally, improper classification processes increase the
likelihood that classified information will be mishandled, and as a result can
undermine the trust and confidence that is necessary for critical sharing of
national security information among and within federal agencies.

       Based on our findings, we believe that SEPS and DOJ component
Security Programs Managers have not emphasized to OCA officials the
importance of the standardized classification process. SEPS should work
with DOJ component Security Programs Managers to ensure that OCA
officials understand the difference between original and derivative
classification decisions and properly mark classified information according to
the proper requirements of the classification decisions.

Review of Classification Levels

      Although we did not find widespread misclassification during our
limited review of classified DOJ documents, we found several documents in




                                       26 

which information was inappropriately identified as being classified.28 We
discussed the specifics of these findings with the components. The following
are some examples of over-classified information found by the OIG and the
response from officials at various DOJ components.

       At the National Security Division, we identified one report (erroneously
classified as an original decision) as over-classified because the information
did not meet one of the eight reasons for classification. The report referred
to FBI classified material, but did not provide specific information about FBI
classified programs or cases that would justify its classification. National
Security Division officials stated that their practice was to follow FBI
practices regarding classification, and because the FBI classifies certain
national security programs and cases, they decided to classify the report.
Moreover, a National Security Division official explained that they are
sensitive to the aggregation of information that could be manipulated to
expose sensitive program details. However, these officials understood the
OIG’s assessment that, because the information contained in the report did
not provide classified details, the information should not have been classified
and agreed to review the classification of future reports.

       At the FBI, we identified a terrorist watchlist nomination document
that was classified by the preparer. Because the terrorist watchlist is an
unclassified subset of terrorism information, the OIG asked the FBI official
responsible for the document why the information in the document was
classified. The official explained that he was unaware of the FBI’s
classification requirement for watchlist nominations and was following
previous work experience practices from another Intelligence Community
agency. This official agreed with the OIG that the information should have
been marked unclassified.

      We also found that the National Security Division and the Criminal
Division over-classified portions in otherwise properly classified documents
that contained standard language citing unclassified laws, statutes, or
regulations. The Criminal Division official who classified the information

       28
           Key terminology, such as “over-classification” and “damage to national security”
has not been defined by law, regulation, or executive order. During the course of our
evaluation, we used a working definition of “over-classification,” which was supplied by
NARA’s Information Security Oversight Office: the designation of information as classified
when the information does not meet one or more of the standards for classification under
section 1.1 of EO 13526. For example, “over-classification” can occur when information is
marked classified but does not fall into any of the eight categories of information specified
by EO 13526. In addition, “over-classification” occurs when information is classified at too
high of a level, such as information that might be marked Top Secret but for which
unauthorized disclosure would not cause “exceptionally grave damage to national security.”


                                             27 

agreed with the OIG’s assessment that the information should not have been
classified. The National Security Division official who reviewed the classified
information in the OIG sample documents opined that the information was
classified appropriately because the inclusion of certain language from laws,
statutes, or regulations could expose the nature of the classified program.
However, this official concurred with the OIG that statements of general
policy that are devoid of derivation or application to specific classified
operations should not be marked classified.

      Persistent misunderstanding and unawareness of proper classification
processes can cause misclassification, which requires additional expenditures
of funds and commitments of resources to store and secure the information
and reduces the transparency of government operations.29 Although our
limited review only found isolated instances of over-classified information,
the types of weaknesses we identified throughout our review were
associated with DOJ’s implementation of information classification policies
and procedures, leading us to believe that DOJ is susceptible to additional
instances of misclassification.

Proper Use of Dissemination Controls

       During our review of DEA classified documents, we found that the DEA
added to some of its classified information the control marking, “Originator
Controlled” (ORCON), with some also including additional warning caveats
on the use of the information. According to the CAPCO manual, ORCON is
used on classified intelligence that clearly identifies or reasonably permits
ready identification of intelligence sources and methods that are particularly
susceptible to countermeasures capable of nullifying or measurably reducing
their effectiveness. The DEA’s Office of National Security Intelligence must
adhere to the CAPCO manual requirements because it is a member of the
Intelligence Community. However, we found that DEA offices within and
outside of the Intelligence Community both used the ORCON dissemination
control and we believe that some of the information in the classified DEA
documents that we reviewed did not meet the CAPCO manual’s ORCON
definition. According to one DOJ official, it is difficult for an agency to deal
with ORCON marked documents because it inhibits sharing of information.
Moreover, this official explained that individuals may also be unaware of
what the ORCON marking actually entails and people may not be following
the instruction for getting authorization from the source to further share the
information.


       29
            According to NARA’s Information Security Oversight Office, the total security
classification cost estimate within the government for FY 2012 was $9.77 billion.


                                              28 

       DEA officials told us that although the DEA’s preference was not to use
the ORCON dissemination control and additional warning caveats, the DEA
had adopted the restrictions for the protection of ongoing investigative
information or confidential source information. Officials explained that the
ORCON marking and warning caveats were necessary to help ensure that
others receiving the information do not act on or share the information
without first “deconflicting” operational activities or coordinating their
information sharing efforts with the DEA. Additionally, DEA officials told us
that even with the addition of the ORCON control markings, the DEA has had
other government agencies misuse their information and in some cases this
has resulted in the compromise of an ongoing operation or damage to
relations with a foreign nation. He also stated that including the ORCON
marking and warning caveat was the DEA’s attempt to better protect its
information by instructing recipients to consult with the DEA before any
action is taken based on DEA information.

      We believe that the use of the ORCON dissemination control is
necessary to protect certain types of classified information. We also
recognize that law enforcement components within the DOJ have a need to
protect their on-going investigations and operations. From our
conversations with DEA officials, it appears that the type of protection that
the DEA is trying to achieve through its use of ORCON is not currently being
affected by its use of the ORCON control marking. In addition, it appears
that the non-Intelligence Community DEA entities using the ORCON control
markings are doing so improperly. According to a SEPS official, overuse of
dissemination control markings like ORCON dilute the effectiveness of these
markings. Therefore, we believe that it is possible that the DEA’s expanded
use of the ORCON dissemination control marking is reducing its usefulness.

       According to SEPS officials, the onus is on DOJ components that use
the ORCON dissemination control to ensure that personnel understand the
purpose of the ORCON dissemination control and use it appropriately.
Moreover, SEPS officials stated that ODNI was developing ORCON-specific
training and SEPS will promulgate that training once it is finalized. Because
the use of the ORCON dissemination marking may also impede the
timeliness for which classified information can be shared between agencies,
we recommend that SEPS ensure that ODNI’s ORCON-specific training is
promulgated to DOJ components once it is issued. In addition, SEPS should
coordinate with the DEA Security Programs Manager and officials
representing all DEA entities using the ORCON control markings to ensure
that the DEA’s use of dissemination control markings is appropriate.




                                     29 

Classification Marking Deficiencies

      During our review of classified documents, we found many documents
that either did not contain required classification markings or contained
incorrect classification markings. When we brought these issues to the
attention of DOJ officials within these components, they generally agreed
with the OIG’s assessments. Exhibit 1-5 provides an overview of the
marking errors identified by the OIG.

                                         EXHIBIT 1-5 

                       Classified Document Marking Errors

                                                         DOJ Components
   Sample of FY 2012 Documents                   National                          Total
                                                           Criminal
      Reviewed by the OIG                  FBI   Security           DEA         Documents
                                                           Division
                                                 Division                        Reviewed
   Derivative Classification Decisions      56      20        16     24             116
   Original Classification Decisions30       0      11        10      4              25
                                                                                   Total
               Marking Errors on Documents Reviewed31                             Marking
                                                                                   Errors
 Classification Block Errors
    Missing, Incomplete, or Incorrect
                                       51           20          16         0         87
    "Classified By" Information
    Missing, Incomplete, or Incorrect
                                       52           18          16         8         94
    "Derived From" Information
    Missing, Incomplete, or Incorrect
                                        5           15          17         0         37
    Declassification Instructions
 Missing Portion Markings              25            9          18         9         61
 Missing or Incorrect Dissemination
                                       23            5          10         8         46
 Control Markings
 Missing or Incorrect Classification
                                       14            7          10         1         32
 Banner
 Totals                               170           74          87        26        357
 Source: OIG Review of DOJ Documents

     Within this sample, we reviewed classified meeting notes and e-mails.
We found that officials often did not properly mark these documents because

       30
            We reviewed the “original classified” documents for proper classification markings
using the requirements for original classification decisions. However, as noted previously,
these documents should have been derivative classification decisions. These documents
were not evaluated to ensure that the source information was identified because original
classification decisions are only required to identify the OCA official and the intent of DOJ
components at the time of our audit was to make original classification decisions.
       31
         The identified marking errors exceed the number of documents reviewed because
in many cases, a single document contained multiple marking errors.


                                             30 

they were unaware of the classified marking requirements for these
classified products. As an example, we reviewed a document containing the
synopsis of a classified meeting over a secure phone call with a National
Security Division official and officials from Intelligence Community agencies
that was marked with an overall classification of Secret, but because the
National Security Division official was unsure about other classification and
marking requirements for meeting notes, the document did not include the
required classification block or portion markings. Similarly, Criminal Division
officials stated that they often discuss classified information at meetings with
members of the Intelligence Community but were unsure about how to
classify and mark their notes from these conversations.

       We also found that although some classified DOJ component e-mails
contained an overall classification marking, the majority of the e-mails that
we reviewed did not contain any classified portion markings or a
classification block. In addition, classified e-mails did not contain the
classification banner. Officials explained that they were not aware of
classification and marking requirements for forwarding a classified e-mail,
and they did not understand their responsibilities when replying to an e-mail
that lacked appropriate classification markings. As a result, a single marking
error in an e-mail can be propagated many times over through replies and
forwards.

       Missing, Incomplete, or Incorrect Classification Block Information –
Generally we found that the identification of the classifier was not included in
the classification block. Moreover, we found that some components did not
include a classification block on documents or included an original
classification block on a derivatively classified document. Further, some
components used out-of-date classification guidance or included outdated
versions of security classification guides. When we asked why the
documents contained incomplete or incorrect classification blocks, FBI, DEA,
National Security Division, and Criminal Division officials stated either they
were unaware of the classification block requirements or were using
outdated templates, tools, or previously classified documents to provide the
format or information for their classification block.

       Lack of or Incomplete Source Reference – We found that none of the
documents that used multiple sources to derive a classified document
properly referenced the source documents in the classification block or
included a classified addendum. Although the implementing regulation and
DOJ policy clearly identify this requirement, FBI, DEA, National Security
Division, and Criminal Division officials stated that they were unaware of the
source list requirements. Criminal Division and National Security Division
officials said that they generally attach the source documents to the file copy

                                      31 

of the document. These officials added, however, that there are instances in
which the drafting attorney needs additional information and will contact the
source of the information directly and could place that information in
Criminal Division and National Security Division case files. However, the
files reviewed by the OIG did not contain source information for all of the
classified information contained in the documents.

      Incorrect Declassification Instructions – FBI, National Security Division,
and Criminal Division officials were also unfamiliar with requirements for
declassification markings. We found that classifiers generally used “25 years
from the date of creation” as the “de facto” declassification date and did not
consult security classification guides for the OCA official’s declassification
instructions. Additionally, some of these officials were unaware of the
requirements for determining a declassification date on a classified
document that was created using information from multiple sources. In
these circumstances, classifiers are required to use the declassification
instruction that corresponds to the longest period of classification among all
of the source documents, yet many of the officials we interviewed stated
that they instead made an educated guess to determine the declassification
date. Because these practices can result in information remaining classified
longer than may be necessary, there is an increased risk of wasted
resources, such as security containers and security guards needed to protect
the information from disclosure. Conversely, if classifiers improperly use a
period shorter than necessary, classified information may inadvertently be
exposed before the risk to national security has passed.

       Missing Portion Markings – In our review of a sample of classified
information, we found 63 occurrences where the classifier failed to properly
apply portion markings to a document with the appropriate classification
level and dissemination instructions. FBI, National Security Division, and
Criminal Division officials attributed these portion marking errors to either
human error or formatting issues. National Security Division and Criminal
Division officials further stated that the marking errors were generally
attributable to the National Security Division and Criminal Division having
received unmarked source documents from other components. One of the
documents reviewed by the OIG contained a footnote specifying that the
document lacked portion markings because the source document was not
properly marked. DOJ officials were mindful of the requirement that
classified documents should contain portion markings, but were unaware
that if a classified source document is not marked correctly the receiving
agency must request a revised version of the document.

      Missing or Incorrect Dissemination Control Markings – We noted
instances where dissemination control markings were not always carried

                                      32 

over from source documents. FBI and DEA officials attributed these
instances to human error and stated that the control markings should have
been carried over to the derivatively classified documents. However, some
of these instances occurred when information from Intelligence Community
documents was transferred to derivatively classified documents created by
DOJ components that are not members of the Intelligence Community.
National Security Division and Criminal Division officials stated that they
were unaware of the requirements for the various dissemination control
markings because they did not have access to or were unaware of
Intelligence Community control and handling marking requirements. In
addition, we found that many of the officials relied on previous training or
experience received from past employment when handling and marking
classified material, even if that experience was acquired when there was
different and now outdated classification guidance.

      Missing Classification Banner - We found various documents that did
not contain an overall classification marking banner. In most of these
instances, FBI, National Security Division, and Criminal Division officials
stated that this was human error.

Factors Contributing to Classification Deficiencies

       As recognized in EO 13526, protecting information critical to national
security and demonstrating a commitment to open government are
accomplished through accurate and accountable application of classification
standards, including uniform classification marking systems and security
classification guides, as well as the use of technology needed to share
national security information. As explained below, we found that the
classification deficiencies identified during our audit were often attributable
to the following factors: deficiencies in DOJ’s implementation of
classification and control marking guidance; inadequate and inconsistent use
of security classification guides; a lack of automated tools capable of
improving classification processes; deficiencies in the systems infrastructure
used to process and store classified information; and weaknesses in DOJ’s
security education and training programs.

Classification and Control Marking Guidance

      As previously mentioned, NARA issued the Information Security
Oversight Office’s Marking Classified National Security Information booklet to
provide a baseline overview for classification marking requirements for
original and derivative classifiers. In addition, ODNI issued the CAPCO
Manual to provide members of the Intelligence Community with a standard
set of classification marking requirements and instructions for using

                                      33 

agency-specific dissemination and handling control markings. However,
some DEA and FBI officials from these Intelligence Community sections who
were responsible for classifying the documents that the OIG reviewed were
either unaware or only vaguely familiar with the CAPCO Manual. These
officials instead relied upon prior knowledge and on-the-job training when
marking classified documents.

       In addition, DOJ officials from the National Security Division and
Criminal Division work directly with the Intelligence Community to produce
legal documents based on information obtained and classified by the
Intelligence Community. However, DOJ officials from these divisions said
that they were unaware of ODNI’s policies and procedures regarding
dissemination control markings as stated in the CAPCO Manual and used on
documents provided by Intelligence Community agencies. These officials
only referenced the Information Security Oversight Office’s Marking
Classified National Security Information booklet when derivatively classifying
Intelligence Community information.

      Of particular concern was National Security Division officials’ lack of
knowledge of the requirement for FISA markings in classified documents, as
defined in the CAPCO Manual. Specifically, the CAPCO Manual contains a
requirement that documents with FISA-obtained information contain a
FISA-specific control marking. The National Security Division is responsible
for overseeing implementation of FISA and receives numerous documents
with such markings from agencies within the Intelligence Community.
However, the National Security Division does not belong to the Intelligence
Community, does not follow the CAPCO Manual guidelines, and does not use
the FISA-specific markings. Moreover, National Security Division officials
explained that when creating new classified documents they do not carry
forward the FISA-specific markings from the original source documents from
the Intelligence Community.

       In September 2012, SEPS published the DOJ Marking Classified
National Security Information guide, the first DOJ-specific marking guide
ever produced. This marking guide is more comprehensive than the
Information Security Oversight Office’s Marking Classified National Security
Information booklet. However, we found that DOJ’s guide did not
incorporate all Intelligence Community marking requirements. Therefore,
we believe that SEPS should ensure that all DOJ components that work with
Intelligence Community national security information – not just those
components that are formally part of the Intelligence Community – have the
necessary training to understand the marking and dissemination controls in
the CAPCO Manual and to ensure that appropriate dissemination control
markings are applied as required.

                                     34 

       In addition, we believe that SEPS should improve the DOJ Marking
Classified National Security Information guide to address the various ways to
properly mark and classify e-mail correspondence and classified meeting
notes. For example, the overview of how to mark a classified e-mail does
not provide instruction for forwarding e-mails or how to elevate the
classification of an e-mail if the response contains information at a higher
classification than the original e-mail. Moreover, there is no overview of how
to classify notes from in-person meetings or secure phone calls where
national security information is discussed.

       According to SEPS officials, the derivative classification concept and
principles do not change because information is in an electronic format or
because information is provided during in-person meetings and phone calls.
However, as identified by the OIG during the audit, many individuals found
that it was difficult to interpret classification and marking guidance and apply
these instructions to e-mails and meeting notes. Further, although SEPS
clearly indicated to the OIG that items such as meeting notes would be
considered “working papers” and would not require classification marking
due to their status as temporary documents, this is not noted in the guide.
Therefore, we believe that SEPS and DOJ component Security Programs
Managers need to ensure that personnel understand how to mark and
classify all types of communication and documentation formats.

      Therefore, we recommend that SEPS review the DOJ Marking
Classified National Security Information guide and incorporate
comprehensive instruction for marking all types of classified products,
including e-mail correspondence and meeting notes.

Security Classification Guide Use

       As previously stated, security classification guides are instructions
from OCA officials on how to properly classify information. None of the
National Security Division or Criminal Division classified documents reviewed
by the OIG were derived from a security classification guide. Many officials
that created these documents were unaware of how to use a security
classification guide and did not know that DOJ had established the DOJ
National Security Information Security Classification Guide for use by all DOJ
components.

       In addition, during our review of FBI classified documents, we found it
difficult to determine if the classification decision was appropriate because
the classification block did not convey enough information to identify the
element within the FBI National Security Information Security Classification

                                      35 

Guide used as a reason for classification. When we asked FBI officials about
their process for determining the classification of information, they informed
us that they do not actually consult the FBI National Security Information
Security Classification Guide when derivatively classifying documents. The
reason the FBI National Security Information Security Classification Guide
was identified as the source in the classification block was because selecting
the FBI National Security Information Security Classification Guide as the
source for all derivative classification decisions was a general practice.

       We found that, in general, the DEA properly sourced its derivatively
classified documents to the DEA National Security Information Security
Classification Guide and identified the specific elements in the guide used to
classify the information. The DOJ National Security Information Security
Classification Guide states that when using one item in the security
classification guide as the derivative source of classification, derivative
classifiers should identify the item number within the classification block.
However, the DOJ guide also states that when a derivative classifier uses
multiple line items within the security classification guide to classify
information, it is sufficient to only cite the security classification guide and
not the specific line items. According to SEPS officials, the general cite
should be used when there are four or more line items that apply to the
classified information.

       The use of security classification guides should facilitate the proper
and uniform derivative classification of information. SEPS should ensure
that all DOJ components understand how to properly use security
classification guides to derivatively classify documents. Moreover, we
believe that including specific line items is a good practice to ensure
accountability for classifying information and also helps facilitates the review
of classified information during the declassification process. Therefore, SEPS
should reinforce to DOJ components its requirement for DOJ components to
include the specific item number of the security classification guide used as
the source of the derivative classification decision and clarify that this is
necessary for up to four line items when multiple line items are used.

Automated Classification Marking Tools

       During our review, we identified various automated tools used by DOJ
components to mark classified information. Each automated tool provided
DOJ components with a more efficient process for marking classified
information and also provided these components with more assurance that
classified information was properly marked.



                                       36 

       For example, to help standardize and expedite the classification and
marking of national security information, ODNI developed a Classification
Management Toolkit (CMT) for use by members of the Intelligence
Community. The CMT is an automated application that classifiers use to
generate and apply classification markings to documents and e-mails,
including a classification banner, classification block, and portion markings.
Currently, the CMT is only available to the FBI and DEA for use on their
classified networks because these two components are the only DOJ
components within the Intelligence Community. The CMT is not available to
any other DOJ components that work with classified information on JCON-S
or JCON-TS, DOJ’s Secret and Top Secret information sharing networks,
respectively.

      Officials from DOJ components without CMT installed on their systems
informed us that they were interested in obtaining an automated system
such as CMT. SEPS officials initially told us that DOJ was interested in
acquiring CMT for all DOJ components, but funding was not available.
However, in May 2013 SEPS began gathering information from the CMT
Program Office within ODNI regarding the cost and requirements to
determine CMT’s functionality and the feasibility of installing it for use
throughout DOJ.32

       We observed the CMT’s classification marking process and interviewed
officials who used the CMT to classify their documents and e-mails. We
believe that the CMT expedites the processing of classifying information and
improves compliance with classification guidance by requiring derivative
classifiers to include required classification markings on their classified
documents. However, we also found that the use of CMT does not replace
the need for oversight and training based on our finding, discussed above,
that some derivatively classified FBI documents we reviewed contained
marking errors, such as not including the identity of the classifier and
referencing outdated source information, despite the fact that the derivative
classifiers had used CMT to mark the document.




       32
            According to an FBI official, the entire program cost of CMT is split between the
20 Intelligence Community “customers.” When CMT was first installed, the FBI made an
initial outlay of $16,000. According to FBI officials, the FBI has not incurred any costs for
CMT since the initial outlay because ODNI has covered additional costs for maintenance and
upgrades. However, an official at the FBI stated that although ODNI has covered
subsequent costs for CMT, ODNI recommended that the FBI allocate additional resources for
CMT just in case ODNI requires an FBI contribution in any given year and to cover any
“FBI-specific” CMT modifications.


                                             37 

      Another automated marking tool we encountered during the audit was
an automated program based on commercially available technology to assist
attorneys with drafting FISA applications. The program, developed by the
Office of Intelligence at the National Security Division, automatically
provides templates for regularly used documents, as well as a classification
banner and document portion markings. This program has not been
adapted for use by other sections within the National Security Division that
develop other types of classified legal documents.

      According to DOJ officials, these automated tools have helped to
expedite and standardize the classification marking process for national
security information. These tools have also assisted DOJ components in
streamlining the process for creating standardized classified documents. We
believe that all DOJ components that work with classified information could
benefit from using automated classification tools to ensure that classified
documents, in particular classified e-mail communications, are marked
appropriately. We recommend that SEPS evaluate the possibility of using
automated classification tools throughout DOJ.

Classification Protocols and Classified Infrastructure

      DOJ components do not always have adequate infrastructure for
accessing and sharing classified national security information. For many DOJ
components, this adds a layer of complexity to working with classified
information.

       For example, an FBI official told us that sometimes the FBI and Central
Intelligence Agency (CIA) will work with the same human source but may
classify the information differently. Typically, the FBI will work with a source
while he or she is in the United States and classify information from the
source as either law enforcement sensitive or Secret, depending upon the
subject matter. The CIA, in comparison, will work with the same source
while he or she is overseas and classify information pertaining to the source
as Secret//Sensitive Compartmented Information. Yet, when the agencies
share their information with each other, the CIA’s use of the additional
Sensitive Compartmented Information caveat results in the FBI not being
able to place the CIA’s information on its regular classified system. Instead,
the FBI must use an authorized Top Secret system or maintain the
information in paper files. As a result, sharing the information with field
offices or agents in remote locations can be arduous because not every FBI
field office or satellite location has ready access to Top Secret systems.
Therefore, to get this information to the proper personnel, the FBI must use
other methods, such as requiring Special Agents to travel to another facility


                                       38 

to access an appropriate system, or relying on other government agencies to
serve as a conduit for the information.

       One information sharing tool is the use of “tearlines.” Tearlines allow
for the separation of pieces of information and enable the release of
classified intelligence information with less restrictive dissemination controls,
and, when possible, at a lower classification. The use of tearlines requires
individuals to prepare a classified document in a manner such that
information relating to intelligence sources and methods, or other highly
classified information, is easily severable to protect such sources and
methods from disclosure. We believe that in instances like the one
described above, the use of tearlines would benefit DOJ components that do
not have the proper infrastructure to access certain classified information.

       However, the use of tearlines and similar workarounds is not a
complete solution, as they do not solve the problem that DOJ does not
currently have a comprehensive classified systems infrastructure capable of
quickly and securely communicating highly classified or sensitive
compartmented information to all personnel who may need to receive it. We
therefore believe that SEPS should evaluate the current classified
infrastructure in place throughout DOJ to determine what improvements are
needed for DOJ components, in particular those DOJ components with field
offices that work with Intelligence Community agencies, to successfully
classify, use, and share all types of national security information. Moreover,
we believe that DOJ components, especially the FBI and DEA, should convey
to their Intelligence Community partners the need to provide classified
information in a form that is as accessible as possible, consistent with the
need to protect the information, and that they should consider the use of
tearlines or other information sharing tools designed to increase information
sharing wherever appropriate. SEPS officials stated that the Intelligence
Community is evaluating tearline reporting and SEPS will convey to all DOJ
components, through the Security Programs Managers, any guidance
provided by the Intelligence Community.

Security Education and Training

      During our interviews with DOJ personnel, many DOJ officials
expressed a general lack of understanding on how to properly identify and
mark classified information. DOJ personnel expressed significant confusion
regarding the appropriate methods for identifying sources of classified
information and marking e-mail correspondence and classified meeting
notes. Many DOJ personnel also said that when they were uncertain about
how or when to classify and mark information, they were more likely to err
on the side of caution and mark the information as classified.

                                       39 

       Moreover, few DOJ officials were aware of or used DOJ classification
resources, including security classification and marking guides, when
working with classified information. Instead, DOJ officials informed the OIG
that they regularly relied on historical practices and prior knowledge to make
classification decisions. In addition, officials explained that if they were
unsure about how to classify and mark information, they would ask a
colleague, who would have experience with the subject matter but may not
have the expertise to answer a classification question accurately. We
believe that this lack of understanding and reliance on “historic” processes
resulted in many of the classification and marking errors we identified.

       To correctly classify information, DOJ personnel need to receive
comprehensive training that adequately prepares them to make informed
classification decisions when dealing with national security information. DOJ
personnel whose duties involve the creation or handling of classified
information are required to take initial and annual refresher classification
training that incorporates procedures for classifying and declassifying
information. However, SEPS and some components within DOJ did not
maintain a system that accurately tracked and verified whether individuals
received and completed the required training. According to SEPS, many of
the components reported in FY 2012 that original and derivative classifiers
did not receive initial or annual refresher training. Moreover, many of the
FBI, DEA, Criminal Division, and National Security Division officials we
interviewed could not identify the training they received and suggested that
a more robust training program would be helpful.

       After reviewing DOJ components’ training programs, as well as the
training offered by SEPS, we found varying degrees of quality and depth.
The FBI had the most comprehensive training program. The FBI offered
ongoing instructor-led classification training sessions, as well as electronic
training sessions that incorporated all aspects of the classification process
and how to manage classified information. In comparison, we found that
other DOJ components offered self-learning programs with no instructor-led
portion. Further, some of these training programs did not provide an
in-depth overview of the classification process, but rather focused on
protecting and storing classified information. One of DOJ’s OCA officials who
received classification training through a slide-show format stated that he
would have preferred a more interactive live training course because it
would have provided him the opportunity to ask questions.

     In FY 2013, SEPS officials recognized the need for training
improvements and initiated automated slide-show training programs for DOJ
components to use for their original and derivative classifiers. According to

                                     40 

SEPS officials, these training programs incorporated knowledge tests that
help to ensure that at least the most basic elements of classification
procedures are understood before an original or derivative classifier receives
credit. However, we found that these training programs did not incorporate
all aspects of security and classification requirements. Of particular note
was the absence of an explanation of DOJ’s classification challenge process,
which entitles authorized holders of information to challenge the
classification status of the information when the holder, in good faith,
believes that its classification status is improper. We found that many DOJ
officials were unaware of DOJ’s formal classification challenge process.
When the OIG informed SEPS about this discrepancy, SEPS officials stated
that information relating to classification challenges is detailed in the SPOM
and individuals are responsible for reading the SPOM, educating themselves
on the classification process, and asking questions of the DOJ component
Security Programs Managers. Although we agree that individuals are
responsible for knowing and understanding DOJ’s security policies and
procedures as detailed in the SPOM, we also understand that the SPOM is
more than 100 pages long and individuals rely on training programs to
instruct them on these procedures.

      Another aspect of classification management that was missing from
DOJ’s training programs was the instruction about what personnel should do
when a source document is either not marked or marked inappropriately. As
previously mentioned, we found documents that DOJ officials knew were not
marked properly, but these officials stated that they did not know how to
handle improperly marked source documents.

       Finally, federal regulations require agencies to emphasize the
importance of sharing and classifying information so it can be used to
maximum utility. However, the SEPS training programs do not emphasize
the importance of ensuring that information is classified at the appropriate
level and not over-classified. Throughout interviews conducted during this
audit, the OIG found that DOJ personnel were more likely to “err on the side
of caution” when it came to classifying information. When there was any
doubt about whether information should be classified, various DOJ officials in
several components stated that they would most likely classify the
information to avoid the risk of accidently releasing classified national
security information. These individuals did not express significant concern
for the possibility of over-classifying information, and some of these
individuals stated – incorrectly in our view – that there are no consequences
for over-classifying information, but that the consequences for releasing
classified materials can be significant.



                                      41 

       We attributed many of the classification and marking issues we
identified throughout our review to inadequate training. Specifically, we
believe that the individuals responsible for the classification decisions and
application of appropriate markings were not sufficiently aware of the
appropriate requirements because the training available throughout DOJ did
not provide its personnel with the comprehensive knowledge regarding
classification policies, procedures, and requirements needed to operate an
effective classification management system. According to SEPS officials,
resource constraints have negatively impacted their ability to operate a
robust security education and awareness training program. We recommend
that SEPS work with DOJ components, specifically the Security Programs
Managers, to enhance classification training programs to ensure that all
personnel are aware of policies, procedures, and requirements for classifying
national security information.

Classification of Otherwise Unclassified Information

       DOJ has both national security and law enforcement responsibilities.
During our review, we found that when the DEA develops intelligence reports
for dissemination to the Intelligence Community it takes unclassified law
enforcement sensitive information, sanitizes the information to exclude
operational information and conceal sources and methods, and upgrades the
classification of that information to Secret. Therefore, the same piece of
information can exist as unclassified law enforcement sensitive information
in a DEA case file and as classified information in a DEA intelligence report.
A DEA official explained that this information must be classified when it is
disseminated to the Intelligence Community because it always has a foreign
nexus and any compromise of this type of information may affect the DEA’s
operations, sources, and relations with foreign services, and would be
damaging to U.S. interests. In addition, this DEA official explained that the
DEA’s classification practice is also based on the mosaic theory of
classification, where individual unclassified facts can add up to classified
facts when looked at in the aggregate. For example, according to this DEA
official the fact that operationally derived information is routed to the
Intelligence Community can elevate the classification level, as it can reveal
information on the scope of the DEA’s operations in particular areas.

      Although we understood the DEA’s concerns regarding the sharing of
information, we also believed that this practice could cause the
over-classification of information. The OIG reviewed the DEA intelligence
reports and questioned the classification of the information in these reports,
as well as the DEA’s overall practice of classifying law enforcement sensitive
information when it is shared with the Intelligence Community. In response,
a DEA official informed us that the DEA’s policy was in-line with DOJ and

                                     42 

ODNI policies for classifying information. Nevertheless, the OIG also
brought this classification practice to the attention of both SEPS and DOJ’s
Department Review Committee (DRC), which functions as DOJ’s oversight
entity in resolving issues related to the implementation of EO 13526,
including those issues concerning over-classification. Both SEPS and the
DRC upheld the classification status of the DEA’s intelligence reports, as
these entities agreed that the mosaic theory of classification applied to DEA
intelligence reports when combined with the fact that the reports were being
shared with the Intelligence Community. However, SEPS and DEA officials
acknowledged that certain portions within the classified intelligence reports
were classified incorrectly.

Recommendations

We recommend that SEPS:

     1.	   Explain to DOJ components the importance of reducing the
           number of OCA officials and have DOJ components re-examine
           their number of OCA officials.

     2.	   Review all DOJ security classification guides and work with
           Security Programs Managers and OCA officials to identify and
           reduce redundancies and to ensure that instructions are clear,
           precise, consistent, and provide derivative classifiers with
           sufficient information to make accurate classification decisions.

     3.	   Work with DOJ component Security Programs Managers to
           ensure that OCA officials understand the difference between
           original and derivative classification decisions and properly mark
           classified information according to the proper requirements of
           the classification decisions.

     4.	   Ensure that ODNI’s ORCON-specific training is promulgated to
           DOJ components once it is issued and coordinate with the DEA
           Security Programs Manager and officials representing all DEA
           entities using the ORCON control markings to ensure that DEA’s
           use of dissemination control markings is appropriate.

     5.	   Ensure that all DOJ components are aware of and understand
           how to apply classification resources and markings, in particular,
           security classification guides, the CAPCO manual, and required
           FISA-specific dissemination controls, as appropriate.



                                     43 

6.	    Review the DOJ Marking Classified National Security Information
       guide and incorporate comprehensive instruction for marking all
       types of classified products, including e-mail correspondence and
       meeting notes.

7.	    Reinforce to DOJ components its requirement to include the
       specific item number of the security classification guide used as
       the source of the derivative classification decision and clarify that
       this is necessary for up to four line items when multiple line
       items are used.

8.	    Evaluate the possibility of using automated classification tools
       throughout DOJ.

9.	    Determine what classified infrastructure enhancements are
       needed for DOJ components, in particular those DOJ components
       with field offices that work with Intelligence Community
       agencies, to successfully use and share appropriate types of
       classified information.

10.	   Work with DOJ components to enhance classification training
       programs to ensure that all personnel are aware of policies,
       procedures, and requirements for classifying national security
       information.




                                 44 

II.   DOJ CLASSIFICATION OVERSIGHT AND MANAGEMENT

      SEPS is responsible for managing and developing DOJ policy for
      classified national security information. SEPS has developed
      oversight and review processes for classified national security
      information, as directed by EO 13526, but has not successfully
      implemented those processes because of insufficient resources,
      deficient oversight, and inadequate assistance from DOJ
      components. For example, SEPS has developed a mechanism
      for collecting information regarding classification decisions by
      DOJ components and has executed a self-inspection program
      throughout DOJ. However, we found that DOJ components
      provided incorrect information to SEPS because they were
      uncertain of all reporting requirements.

SEPS Classification Management and Oversight

       As the designated DOJ Department Security Officer, the Director of
SEPS is responsible for managing and developing the policy for DOJ’s
classified national security information and ensuring DOJ’s organizational
compliance with classification laws, regulations, and directives, as
appropriate. To accomplish this task, SEPS has promulgated the Security
Program Operating Manual (SPOM), which provides the foundation for DOJ’s
security and classification management program.

       With nearly 60,000 personnel authorized to potentially access and
derivatively classify national security information, SEPS’s responsibilities are
significant. Previous reviews conducted in 2006 by the Government
Accounting Office (GAO) and NARA’s Information Security Oversight Office
found that SEPS lacked adequate resources to implement DOJ’s security
classification program. During our audit, SEPS officials expressed concern
that while EO 13526, the Reducing Over-Classification Act, and other
mandates that are unrelated to classification have substantially increased
SEPS’s responsibilities over the past few years, SEPS has not received any
additional resources to fulfill those obligations. These officials stated that
the resource constraints necessarily limit the effectiveness of their oversight
and management of DOJ’s security and classification program.

      SEPS’s classification program activities do appear to be understaffed.
SEPS has only one classification subject matter expert who, in addition to
being responsible for overseeing the development and review of DOJ’s
security classification guides, is also responsible for the coordination and



                                       45 

development of DOJ’s declassification guide and procedures.33 Additionally,
SEPS has only staffed a single 4-person team responsible for conducting
on-site compliance reviews of DOJ’s 3,500 facilities and 115,000 employees
to ensure compliance with DOJ security policies and classification practices.
Moreover, these compliance reviews do not focus exclusively on classification
and marking procedures, but also include evaluations of physical, personnel,
contractor, and document security; information technology; communications
and operations; occupant emergency; continuity of operations; and safety
and health programs.

       Due to a lack of in-house resources, SEPS relies heavily on each
component’s designated Security Programs Manager, who oversees the
component’s internal security review programs and manages the associated
security processes. According to SEPS officials, however, many Security
Programs Managers do not have the appropriate background to manage the
breadth of their component’s security programs. These SEPS officials told us
that some DOJ components assign the Security Programs Manager function
to personnel as a collateral responsibility and do not devote adequate
resources to train them on proper classification procedures. Some SEPS
officials told us that these problems result in a high turnover rate for
Security Programs Managers, which makes it difficult for SEPS to effectively
coordinate and oversee the implementation of security policies and
procedures.

       During our review we found weaknesses in SEPS’s execution of
classification management requirements, including oversight of classified
information and special access programs, classification reporting
requirements, annual self-inspection reports, oversight of compromises to
classified information, and implementation of regulatory requirements.
Moreover, we identified that SEPS did not fully implement certain
classification program requirements in accordance with EO 13526. We
believe that some, but not all of these weaknesses resulted from or were
exacerbated by resource constraints at SEPS.

Special Access Programs

       Another weakness that the OIG found involved DOJ components
participating in Special Access Programs (SAP) unbeknownst to SEPS. A SAP
is a program established for a specific class of classified information and



      33
        United States Department of Justice Automatic Declassification Guide,
November 2012.


                                           46 

designed to impose safeguarding requirements that exceed those normally
required for information at the same classification level.

       During the course of our review, we found that the FBI was
participating in an Intelligence Community SAP since 1999 and the DEA was
participating in an Intelligence Community SAP with read-on procedures
since 1991.34 SEPS officials explained that both of these programs fall under
the purview of the Intelligence Community and SEPS does not have any
additional required oversight over these programs. However, SEPS officials
also stated that as the entity responsible for ensuring DOJ’s compliance with
classification management procedures, SEPS should ideally be aware of all
SAP programs that DOJ components operate, even if those programs fall
under the auspices of the Intelligence Community. Therefore, in order to
ensure that SEPS has a comprehensive understanding over DOJ’s
classification management program, we recommend that SEPS establish a
policy for DOJ components to alert SEPS to its participation in SAPs that are
overseen by the Intelligence Community.

Classification Program Reporting Requirements

       SEPS annually prepares and submits to NARA’s Information Security
Oversight Office certain metrics on the number of DOJ classification
decisions, number of challenges to DOJ classification decisions, DOJ
classification training, and the associated costs of maintaining DOJ classified
information. SEPS relies on the components to self-report the above
information. Yet we found that although SEPS has collected this information
as required, it has not verified the accuracy of the information reported even
though some of the information submitted by components was
questionable.35 SEPS officials believe that Security Programs Managers
must ensure that these reports contain accurate and reliable information
before they submit them to SEPS. However, we found that DOJ components
did not receive enough guidance on how to report the number of classified

       34
           When an OCA official(s) determines that certain classified information requires
additional safeguarding, agencies will implement “read-on” procedures to limit the number
of persons with access to the information and control dissemination of the information.
       35
            In FY 2012, the Criminal Division reported to SEPS that two personnel from one
section generated 185 classification decisions through e-mail. However, when we requested
a listing of the classification decisions, an official within the section said that she included all
classified e-mail in the total derivative classification decisions – regardless of whether she
was the originator of the initial e-mail. This official was unaware that only the initial e-mail
in a string of e-mails should be counted as a classification decision. As a result, this official
said that the majority of the derivative classification decisions that were reported to SEPS
were reported in error.


                                                47 

decisions. Some component officials acknowledged that for FY 2012 they
reported an incorrect number of classified decisions because they were
unclear about the reporting requirements.

Self-Inspections

       As required by EO 13526, in 2011 SEPS established a self-inspection
program to help oversee DOJ's classified national security information
program. To implement the DOJ self-inspection program, SEPS provided a
self-inspection checklist that required DOJ components to evaluate
adherence to classification principles and compliance with requirements
covering original classification, derivative classification, declassification,
safeguarding national security information, security violations, security
education and training, and management and oversight. The
self-inspections also require DOJ components to conduct annual reviews of
their relevant security directives and instructions, examine a representative
sample of their original and derivative classification decisions, and interview
producers and users of classified information. Since FY 2011, SEPS has
reported the results of the self-inspection program to NARA’s Information
Security Oversight Office.

       We reviewed a sample of DOJ components’ self-inspection reports and
identified significant methodological errors. Some components reported that
they had performed a review of classified documents, but the review
procedure described in the report only entailed physical security reviews of
offices and facilities and did not mention any type of document review. The
OIG verified with some Security Programs Managers that they only
conducted informal reviews that did not evaluate the classification and
marking of documents. In addition, we found that some components did not
conduct annual reviews, as directed, but conducted reviews on a tri-annual
basis. Moreover, some components did not answer all of the questions
included in the self-inspection checklist, which could indicate that the
self-inspection review was incomplete.

      SEPS officials were aware of the incompleteness and inaccuracies
found in the components’ self-inspection’s reports in FYs 2011 and 2012
when they were initially submitted, reviewed by SEPS officials, and
consolidated into DOJ’s report to NARA’s Information Security Oversight
Office. However, SEPS did not follow up with DOJ components at the time to
ensure that these reports contained the most reliable information. According
to SEPS officials, this was due to its resource constraints and that only one
specialist oversees the self-inspections reporting process and that the
responsibility is a collateral duty.


                                      48 

       In March 2013, SEPS implemented monthly focus meetings for
Security Programs Managers to assist in implementing classification policies
and procedures, including the self-inspection requirement. SEPS officials
believe that these meetings will improve the management of security
matters in DOJ, including the accuracy and reliability of the self-inspection
reports. We recommend that, in addition, SEPS should evaluate its
oversight of the self-inspections process to ensure that DOJ improves the
reliability of information in its reports to NARA’s Information Security
Oversight Office.

Oversight of Compromised Classified Information

       As required by NARA’s Information Security Oversight Office’s
Classified National Security Information directive, SEPS established
procedures to conduct inquiries into any reported loss, possible compromise,
or unauthorized disclosure of classified information. The DOJ SPOM requires
that DOJ components must report all of these incidents to SEPS through the
component-level Security Programs Manager. Despite this requirement, we
identified a significant incident at the FBI that was not reported to SEPS.

       According to FBI officials, in 2010 the FBI incorrectly entered Top
Secret information from an Intelligence Community agency into a
Secret-level FBI database used to track terrorist threats. The incident was
identified when an FBI employee was informed by the Intelligence
Community agency that certain information, when combined, was classified
at the Top Secret level. As part of this review, in March 2013 the OIG
learned of the incident followed up with the FBI to determine whether the
classified information had been removed from the Secret database and
whether the classified information might also have been inappropriately
included in other FBI systems. FBI officials told us that they were not
certain whether the information was included in other FBI systems.
Ultimately, it was not until July 2013, approximately 3 years after the
incident and after multiple inquiries by the OIG, that the FBI completed the
removal of the information from other FBI systems.

      Notably, we found that the FBI did not inform SEPS of the
compromise. In August 2013, after the OIG inquired about why the FBI had
not met its responsibility to notify SEPS of the incident, the FBI officials
informed us that they would notify SEPS that month. According to the FBI,
the FBI’s inability to meet this specific requirement was the result of limited
resources responsible for reporting incidents to SEPS, as well as the lack of
an enhanced, automated, and standardized reporting system at the time of
the incident. We believe that this discrepancy was also, in part, the result of
the FBI’s Security Programs Manager not following specific requirements, as

                                      49 

defined by SEPS, and this underscores the need for better oversight of
classification procedures. Therefore, we recommend that SEPS review DOJ
components’ procedures for reporting compromises of classified information
and reinforce to Security Programs Managers the importance of reporting
compromises of classified information to SEPS. SEPS officials stated that in
early 2014, SEPS will provide Security Programs Managers with more robust
training in this area.

DOJ Implementation of Regulatory Requirements

       As part of the oversight of DOJ’s classification management program,
SEPS is responsible for ensuring that policies and procedures comply with all
regulations and federal requirements. Although DOJ established
classification policies and procedures to ensure that information is classified
and disseminated appropriately, we found some instances where DOJ did not
adequately address the following requirements of EO 13526.

      	 The DOJ SPOM does not explicitly include a statement that all
         individuals are free from retribution for challenging the
         classification of information.

      	 The DOJ SPOM does not discuss the process of transferring
         ownership of classified information with a transfer of functions.
         Such a discussion would be relevant, for example, when DOJ closes
         an office that handles classified information, as it did in 2012 when
         it closed the National Drug Intelligence Center and transferred all
         classified information belonging to that office to another agency.

      	 Not all DOJ components incorporated classification management
         into performance plans and evaluations for OCA officials, derivative
         classifiers, and security programs officials.

      	 DOJ did not publish the updated Mandatory Declassification Review
         processes in the Federal Register.

      In addition, we found that the DOJ SPOM was not updated in a timely
manner to correspond with certain ongoing DOJ classification practices.
Specifically, although SEPS drafted procedures relative to controls over a
particular classified program, it had not finalized those procedures and
added them to the DOJ SPOM.

      In response to the weaknesses identified above, SEPS officials stated
that Security Programs Managers were instructed through memorandum, as
well as during the self-inspection process, to incorporate classification

                                      50 

management in performance plans for OCA officials, derivative classifiers,
and security programs officials. In addition, SEPS officials stated that the
process of transferring ownership of classified information with a transfer of
functions is the responsibility of DOJ components’ Records Management
Divisions. Moreover, SEPS officials do not believe that this process is
significant to DOJ’s security programs or the overall classification
management program. Nevertheless, EO 13526 and its implementing
directive explicitly discuss the process for transferring information for
agencies that cease to exist. Therefore, we believe that the SPOM should
include this subject area and inform DOJ employees that, within DOJ, the
procedures components are required to follow when transferring ownership
of classified information are a records management function and direct the
reader to additional reference material.

        According to SEPS officials, it has limited resources dedicated to
classification management. Therefore, we believe that certain tasks, such as
timely updates and reviews of enacted policies and procedures, are not
always highly prioritized by SEPS. Although these specific discrepancies may
not directly attribute to the misclassification of information, we believe that
it is important that SEPS ensure that DOJ is in compliance with all regulatory
requirements.

Recommendations

We recommend that SEPS:

      11.	   Establish a policy for DOJ components to alert SEPS to
             participation in SAPs that are overseen by the Intelligence
             Community.

      12.	   Evaluate its oversight of the self-inspections process to ensure
             that DOJ improves the reliability of information in its reports to
             NARA’s Information Security Oversight Office.

      13.	   Review DOJ component’s procedures for reporting compromises
             of classified information and reinforce to Security Programs
             Managers the importance of reporting compromises of classified
             information to SEPS.

      14.	   Incorporate in the SPOM a reference to the procedures DOJ
             components are required to follow when transferring ownership
             of classified information.



                                       51 

              STATEMENT ON INTERNAL CONTROLS

       As required by Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of internal controls for the Justice
Management Division, FBI, DEA, National Security Division, Criminal
Division, and USMS was not made for the purpose of providing assurance on
the agencies’ internal control structures as a whole. The management of
these DOJ components is responsible for the establishment and maintenance
of internal controls.

       Through our audit testing, we identified internal controls deficiencies
within SEPS’s oversight of DOJ’s classification management program. Based
upon the audit work performed we believe that SEPS lacks the controls
necessary to effectively oversee DOJ components’ compliance with certain
classification reporting requirements and their implementation of security
classification procedures. These matters are discussed in detail in the
Findings and Recommendations sections of our report.

       Because we are not expressing an opinion on internal control
structures as a whole for the Justice Management Division, FBI, DEA,
National Security Division, Criminal Division, and USMS, this statement is
intended solely for the information and use of DOJ components involved in
this review. This restriction is not intended to limit the distribution of this
report, which is a matter of public record.




                                       52 

                   STATEMENT ON COMPLIANCE

                  WITH LAWS AND REGULATIONS 


      As required by the Government Auditing Standards, we tested, as
appropriate given our audit scope and objectives, records, procedures, and
practices, to obtain reasonable assurance that management for the Justice
Management Division, FBI, DEA, Criminal Division, and National Security
Division complied with federal laws and regulations, for which
noncompliance, in our judgment, could have a material effect on the results
of our audit. The management for these entities is responsible for ensuring
compliance with applicable federal laws and regulations. In planning our
audit, we identified the following laws and regulations that were significant
within the context of the audit objectives:

      	    Public Law 111-258 (2010), The Reducing Over-Classification Act

      	    Executive Order 13526, Classified National Security Information,
            December 29, 2009

      	    32 CFR Part 2001 and 2003 Part V Classified National Security
            Information; Final Rule (2010)

       Our audit included examining, on a test basis, the auditees’
compliance with the aforementioned laws and regulations that could have a
material effect on these DOJ components’ operations. We accomplished this
task by reviewing classification policies, procedures, and practices;
identifying and analyzing documentation related to classification
management, including training programs and self-inspection reports;
interviewing personnel who oversee classification programs and who are
responsible for classifying information; and testing classified documents to
ensure they comply with all classification requirements. We did not identify
any issues that caused us to believe that the FBI, DEA, Criminal Division,
and National Security Division were not in compliance with the
aforementioned laws and regulations.

       In general, the Justice Management Division was in compliance with
these applicable laws and regulations. However, we found that the Justice
Management Division did not fully implement certain requirements. DOJ did
not comply with the EO 13526 requirement to include in its implementing
policy – the Security Program Operating Manual (SPOM) – a statement that
all individuals are free from retribution for challenging a document. In
addition, EO 13526 directed agencies to include Mandatory Declassification
Review processes in the Federal Register, which DOJ had not fulfilled at the
time of the OIG’s review because it did not publish the most up-to-date

                                     53 

Mandatory Declassification processes. Finally, the DOJ SPOM does not
discuss the process of transferring ownership of classified information with a
transfer of functions, as required by EO 13526. These issues are identified
in the Findings and Recommendations sections of our report.




                                      54 

                                                              APPENDIX I 


      AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

Audit Objectives

      As mandated by Congress, the DOJ OIG conducted an audit to
evaluate policies and procedures implemented by DOJ for its classification
management program. Specifically, P.L. 111–258 (2010), the Reducing
Over-Classification Act required that:

      The Inspector General of each department or agency of the
      United States, with an officer or employee who is authorized to
      make original classifications, shall carry out no less than two
      evaluations of that department or agency or a component of the
      department or agency to: (1) assess whether applicable
      classification policies, procedures, rules, and regulations have
      been adopted, followed, and are effectively administered within
      such department, agency, or component; and (2) identify
      policies, procedures, rules, regulations, or management practices
      that may be contributing to persistent misclassification of
      material within such department, agency, or component.

Scope and Methodology

      We conducted this congressionally mandated review in accordance
with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our
audit objectives.

        The Reducing Over-Classification Act directed that the Inspectors
General consult with NARA’s Information Security Oversight Office and each
other throughout the evaluations and coordinate amongst themselves to
ensure that the evaluations follow a consistent methodology for report
comparison. Pursuant to this mandate, the ODNI Office of Inspector General
along with the Department of Defense Inspector General coordinated and
facilitated a working group to develop a standard evaluation guide that we
used as a basis for our evaluation.

       To accomplish our objectives, we conducted over 100 interviews with
officials from the Justice Management Division, National Security Division,
Criminal Division, FBI, DEA, and USMS located in and near


                                     55 

Washington, D.C., as well as at the FBI’s Chicago and Washington field
offices and the DEA’s Chicago Division.

      Our testing included selecting and reviewing a judgmental sample of
141 original and derivative classification decisions made by the National
Security Division, Criminal Division, FBI, and DEA. We chose these DOJ
components because their classification decisions comprised a substantial
percentage of all classification decisions made by DOJ components with an
OCA official in FY 2012. Our sample selection methodologies were designed
to give us a broad exposure of different classification decisions.
Furthermore, the selection methodologies were not designed with the intent
of projecting our results to the populations from which the samples were
selected.

      In addition, although the OIG has an OCA official and reported
derivative classification decisions during our audit period, we excluded the
OIG from our review to avoid a conflict of interest. The exclusion of the OIG
from our audit work did not affect the results of our audit because the OIG
did not meet the classification decision threshold we established for selecting
DOJ components to review.

Classified Document Universe

     The following table identifies the different types of classified
documents that the OIG reviewed. As shown, our review provided a broad
exposure to the different types of classification decisions made by DOJ
component officials.

                     Classified Documents Reviewed
                                              National
                                                          Criminal
        Document Type              FBI        Security                DEA   Total
                                                           Division
                                               Division
E-mail                              1               0          6       0     7
Court Document                      0               4         15       0    19
Memorandum                          7              21          4       0    32
Congressional Report                3               1          0       0     4
FISA Application                    0               4          0       0     4
Other Report                        0               1          0       0     1
Intelligence Information Report     8               0          1      11    20
Investigative Leads                 0               0          0      17    17
FBI Electronic Communication       37               0          0       0    37
Total Documents                    56              31         26      28    141
Source: OIG Analysis of DOJ Components’   Classified Documents




                                          56 

      National Security Division – To identify a sample of classified
documents, we requested from the National Security Division Security
Programs Manager a breakdown of both originally and derivatively classified
decisions by all National Security Division offices in FY 2012 to determine
which National Security Division offices made the most classification
decisions. The Security Programs Manager informed the OIG that the
National Security Division’s Counterterrorism Section, Counterespionage
Section, and Office of Intelligence made the majority of the derivative and
original classification decisions during FY 2012.

       We requested that officials from the aforementioned offices provide
the OIG with a list of classified decisions made during the last quarter of
FY 2012. From these lists, we selected a judgmental sample of 11 originally
classified decisions and 20 derivatively classified decisions that included
Secret and Top Secret reports, FISA-related documents, and memoranda.
We also interviewed National Security Division officials who were the
classifiers or the managers of employees who classified the sample
documents to identify reasons for classification or marking errors.

       Criminal Division – To identify a sample of classified documents, we
requested from the Criminal Division Security Programs Manager a
breakdown of both originally and derivatively classified decisions by all
Criminal Division offices in FY 2012. From the information provided, we
identified that the Drug Intelligence Unit and the Human Rights and Special
Protections Section made the majority of Criminal Division’s original and
derivative classification decisions during FY 2012.

       We requested that officials from the Drug Intelligence Unit and the
Human Rights and Special Protections Section provide the OIG with a list of
classified decisions made during the last quarter of FY 2012. From these
lists, we selected a judgmental sample of 10 originally classified documents
and 16 derivatively classified documents that included Secret and Top Secret
reports, court documents, e-mails, and memoranda. We also interviewed
Criminal Division officials from the aforementioned offices who were the
classifiers or the managers of employees who classified the sample
documents to identify reasons for classification or marking errors.

       Federal Bureau of Investigation – The FBI reported its derivatively
classified decisions for FY 2012 were based on a statistical projection. The
FBI’s statistical projection was developed from a random sample method
implemented to determine a reasonable estimate for the total number of
derivative classifications that were made over the 1-year period. Because
the universe was an estimated projection, there was no list of actual
classified decisions from which to select a judgmental sample of documents.

                                     57 

      To overcome the limitation of not having a universe to choose from,
the OIG requested a list of operational areas that create the most classified
decisions. The FBI informed the OIG that the Counterterrorism Division,
Counterintelligence Division, Cyber Division, and the Weapons of Mass
Destruction Division create the most classified decisions.

       The OIG requested a list of all cases that were open in the four FBI
operational areas during the last quarter of FY 2012 in Chicago, Illinois;
Washington, D.C.; and FBI headquarters. The FBI provided a listing of cases
that were opened during the last quarter of FY 2012 in the selected
operational areas and locations. From this listing of cases opened during
FY 2012, the OIG judgmentally selected a sample of cases for review.
Although the number of cases that were opened during the period was
significantly lower than the number of cases that were open during the
period, the OIG determined that the number of cases opened during the
period was of sufficient number from each division and location to provide a
broad range of documents for review.

       From the listing of cases selected for review, the OIG then requested a
listing of the classified documents associated with each selected sample
case. From the listing of documents, the OIG judgmentally selected
classified documents to review.

       The OIG requested an additional list of all Intelligence Information
Reports prepared by the FBI’s Directorate of Intelligence in the last quarter
of FY 2012. From this list, the OIG judgmentally selected a sample of
classified Intelligence Information Reports created by FBI officials in
headquarters and field offices to review.

      The OIG also requested a listing of all reports containing
FBI-generated classified information that were issued to Congress during the
last quarter of FY 2012. From this list, the OIG judgmentally selected a
sample of Congressional reports to review.

      Finally, the OIG reviewed FBI documents that had been referenced as
source documents during reviews of other components. In total, the OIG
reviewed 56 derivatively classified documents and interviewed over
25 individuals from these operational areas and offices. The classified
documents we reviewed included reports, case file documents, Intelligence
Information Reports, e-mails, and memoranda. These documents included
Top Secret, Secret, and Confidential classified documents.



                                      58 

       Drug Enforcement Administration – To identify a sample of classified
documents, we requested from the DEA Office of Security Programs a
universe of both originally and derivatively classified decisions by all DEA
offices. From the universe provided, we identified that the Office of National
Security Intelligence, the Special Operations Division, and the Office of
Special Intelligence made the majority of DEA’s original and derivative
classification decisions during FY 2012.

       We requested that officials from the aforementioned DEA offices
provide the OIG with a list of classified decisions made during the last
quarter of FY 2012. From these lists, we selected a judgmental sample of
4 originally classified documents that included Secret investigative leads and
24 derivatively classified documents that included Confidential and Secret
intelligence information reports and other standard reports. We also
interviewed DEA officials from these sections who were the classifiers or the
managers of employees who classified the sample documents to identify
reasons for classification or marking errors.

Testing Process

       To evaluate original classified decisions we reviewed each decision to
ensure it met the criteria as mandated by EO 13526, 32 CFR Part 2001 and
2003, the Information Security Oversight Office’s Marking Classified National
Security Information booklet, and for DOJ entities that were part of the
Intelligence Community, the CAPCO Manual.

Testing of Classification Decisions

       Original classification decisions are used only for previously
unclassified information and should not be based on a prior classified
decision as found in a source document or relevant security classified guide.
When making derivative classification decisions, derivative classifiers must
observe and respect the original classification decision and carry forward to
any newly created document the pertinent classification markings from the
source document(s) or the security classification guide. The derivative
classification decisions must also include a classification block, a
classification banner that reflects the highest classification level of the
information contained in the document and appropriate dissemination
controls found in the document, and each portion of the document shall be
marked with the classification level and any dissemination controls from
either source document(s) or a security classification guide.

     We reviewed a sample of DOJ original classification decisions to
determine if these decisions were the first instance of classification and if the

                                       59 

classification reason provided was consistent with the EO 13526
requirements. As identified in the Findings and Recommendations sections
of this report, we found discrepancies with the original classification
decisions we reviewed.

       In addition, we conducted a review of the classified information in the
originally classified documents to assess whether it appeared to meet the
level of classification assigned to it and if the reason assigned to it was
accurate. Moreover, we reviewed the classified information in the derivative
classification decisions to assess whether the classification level
corresponded to the source documents and appeared to meet the level of
classification assigned. In instances we identified as potential
misclassification, we discussed our concerns with the classifier. In most of
these instances the classification of information appeared to be justified, but
as explained in the Findings and Recommendation sections of the report we
identified a small number of documents that contained over-classified
information.

       Exhibit I-3 provides an overview of the classification marking
requirements that the OIG evaluated for DOJ’s original and derivative
classification decisions. We reviewed DOJ classified documents to ensure
that these markings were present and included all of this information and if
the markings were appropriate for the information contained in the
documents. For our evaluation of derivatively classified decisions, we
ensured that the derivatively classified documents included the accurate and
complete markings, as identified above. In addition, we reviewed these
decisions to determine if dissemination and control markings were
appropriately carried over from the source document(s) or security
classification guide. As explained in the Findings and Recommendations
sections, we found marking errors that we brought to the attention of DOJ
officials.




                                      60 

                                                                                                         APPENDIX II 


                        CLASSIFIED DOCUMENT MARKING REQUIREMENTS 


                                                              Overall
                                                           Classification
                                                             Markings




                                                                                                              Portion
       Portion                                                                                               Markings
      Markings




                                                                                                                 Derivative
                                                                                                                Classification
   Original
                                                                                                                    Block
Classification
    Block

                                                                                                                   Overall
                                                                                                                Classification
                                                                                                                  Markings

 Source: NARA’s Information Security Oversight Office, Marking Classified National Security Information, December 2010
 (Revision January 1, 2012)


                                                             61 

                                                                                  APPENDIX III 


             JUSTICE MANAGEMENT DIVISION’S 

              RESPONSE TO THE DRAFT REPORT 


                                                     u.s. Departmcnt or Justicc




        SEP 1 9 2013



MEMORANDUM FOR RAYMOND 1. BEAUDET
               ASSISTANT INSPECTOR GENERAL FOR AUDIT
               OFFICE OF THE INSPECTOR GENERAL

FROM:                    Lee J. Lofthus
                         Assistant AtlOme~(I.¥~~
                          for Administmti

SUBJECT:                Audit of the Department of Justice's Implementation of
                        National Security Infonnation Classification Requirements

This responds to your September 9, 2013 memorandum requesting the agency's official response
to the subject report. The sensitivity review and management representation leners will be
provided under separate cover by the Department Security Officer. I appreciate this opportunity
to provide comments on this report.

While the report sample did not find indications of widespread misclassi fication . I concur with
the need to strengthen the Department's classification management program and ensure greater
consistency in Department of Justice (DOl) classification actions. Below arc specific comments
and proposed corrective actions to the recommendations.

   1. Expla in to OO J (:o mpon l'nts thl' impo rta nce of reducing th e numb(:r ofOrigiml)
      C lassification A ut.hori ty (OCA) officia ls a nd have DOJ l'omponcnts r e·C'Xu minc
      thdr num ber of ~CA offici wls.

       Agn:e. The Se<:urily and Emergency Planning Starr (SEPS) will continue to work with
       individual components to ensure lhat their OCA delegations arc evaluated according to
       lhc DOl Security Program Opemting Manual (SPOM). Section 4·102 (I) of the SPOM
       statcs that delegations ofOCA shal l be limited to the minimum required to administer
       Executive Order 13526, Classified National Security Infonnation. In addition.
       Section 4·102 (h) stales that components shull limit requests for OCA to those positions
       that have a demonstrable and continuing need to exerci~ this authority.

       To address this requirement, the Department Security Ofi'icer will nOlify all DOJ Security
       Programs Managers (SPMs) with dclegated OCAs oflhe importance of reducing the
       number of OCAs, and instruct SPMs to re-examine their OCA delegations for possible
       reductions by October 4, 2013 .




                                                62 

Memorandum fo r Raymond J. Beaudet                                                         Page 2
Subjc<:t: Audit of the Department of Justice's Implementation of
           ational Sc<:urity lnfonnation Classification Requirements



   2. Review all DOJ sec urity classifica tion g uides and work witb Securi ty Progra ms
      Manage" a nd OCA orficials to identify and reduce redundancies to ensure that
      instructions a re clea r, precise, consistent, a nd pro,'idc deril'ative classifiers with
      sufficient information to ma ke accurate classification decisions.

       Agree. DOJ completed its first Fundamental Classification Guidance Review in
       July 2012. Pcr Executive Order 13526, fundame ntal classification guidance reviews will
       be conducted on a periodic basis thereafter, but shall be conducted at least once every
       five years. SEPS is currently working with the National Security Division (N SD) and the
       United States Marshals Services (USMS) to ensure that the DOJ National Security
       Infonnation Security Classification Guide is updated and revised to adequately meet the
       requirements and needs of those components, to include providing clear, precise, and
       consistent infonnation .

       In addition, SEPS will establish a Security Classification Guide Working Group which
       will include members from each component with delegated OCA. nus working group
       will be established prior to November 15, 2013. The working group will review all DOJ
       security classification guides to ensure that security classification issues mentioned in this
       report are further identifi ed and resolved in order to provide derivative classi fiers
       throughout the Department with sufficient information to make accurate classification
       decisions. Updated and revised classification guides resulting fro m the efforts of the
       Security Classification Working Group will be disseminated to component SPMs and
       OCA officials by March 28, 2014.

   3. Work with DOJ component Security Programs Managers to ensure that OCA
      offi cials understand the difference between original and derivative classification
      decisions and properly mark classified information according to the prope r
      req uirements of the classification decisions.

       Agree. SEPS will continue to work with component SPMs to ensure that DCA officials
       understand proper classification marking requirements and will funher educate the OCAs
       regard ing the difference between original and derivative classification decisions. In
       accordance wi th the SPM and Executive Order 13526, DCA officials arc required 10
       receive annual training on their OCA responsibilities, in addition to receiving annual
       classified National Security Infonnation (NS I) refresher training, which includes
       classification marking requirements. The OCA and NSI refresher training are currently
       available on various DOJ learning platfonns via compuler based training. The difference
       between original and derivati ve classification is also detailed in the " DOJ Guide for
       Original Classification Authorities." The SPMs have been instructed to provide Ihis
       guide to their OCAs.




                                                     63 

Memorandum for Raymond J. Beaudet                                                       Page 3
Subject: Audit of the Department of Justice's Implementation of
          ational Security Information Classification Requirements

       SEPS will ensure that component OCAs have either completed the above training onli ne
       or othen.vise received training that meets the minimum standards of Executive Order
       13526. Component SPMs with outstanding training requirements as of
       September 30, 2013, will be noti fied via email that they have until December 3 1, 2013 to
       ensure that their OCAs have received the appropriate training and that their OCAs
       understand the difference between original and derivative classification decisions. An
       acknowledgement statement \vill also be required by the OCAs stating that they
       understand original and deri vative classification decisions and how to properly mark
       classified information according to the requirements of the classification deci sions.

   4. Ensure that ODNl's ORCON-spcc ific training is promulgated to DOJ components
      once it is issued and coordinate with the DEA Security Programs Manager and
      officials representing aU DEA entities using the ORCON control marking to ensure
      that DEA's usc of dissemination control markings is appropriate.

       Agree. Within DOl, only the Federal Bureau of Investigation's (FBI) National Security
       Branch and the Drug Enforcement Agency (DEA) Office of National Security
       Intelligence are members of the Intelligence Community (lC), and are required to abide
       by OD I guidelines and directives, in addition to those promulgated by the 001. These
       sections ofthe FBI and DEA, as members of the IC, arc currently required by the DONI
       to report on the use of ORCO as part of the annual reporting requirements outlined in
       Inte lligence Community Directive (lCO) 710, Classification and Control Markings
       System. It is our understanding that the OONI is current ly developing training that will
       address the proper use, application, safeguarding, processes fo r dissemination, and
       derivative usc of the ORCO marking. As IC members, this will be an 00 I directed
       mandatory training requirement for the FBI ational Security Branch and the DEA
       Office of National Security Intelligence.

       By October 4,20 13, SEPS will contact DDNI for an estimated training completion date.
       Once developed, SEPS will evaluate within 30 days of its completion the OONI training,
       and will either choose to implement the training or work with the OONI to develop
       within 90 days a similar version of the training that is appropriate to oors general
       audience, including the OEA.

   S. Ens ure that all DOJ components arc aware of and understand how to apply
      classification resources and markings, in particular, security classi fication guides,
      tbe Controlled Access Program Coo rdination Office (CA PCO) manual, and
      required FISA-specific dissemination controls, as appropriate.

      Agree. SEPS will convene a securi ty education working group consisting of component
      SPMs, no later than November 15, 2013 to evaluate training requirements, standards, and
      delivery methods. Training requirements and standards resulting from the efforts of thi s
      working group will be dissem inated by March 28,20 14 to ensure 0 0 1 components arc
      aware of, and understand how to apply classification resources and markings.




                                               64 

Memorandum for Raymond J. Beaudet                                                        Page 4
Subject: Audit of the Department of Justice' s Implementation of
         National Security Infannatian Classification Requirements

   6. Review ihe OOJ Ma rking Classified National Security Information guid e and
      incorporate comprehensive instruction for marking all types of classified products,
      including e-mail correspondence and meeting noles.

       Agree. The purpose of the DOJ Marking Classified National Security Infannation Guide
       is to provide employees with an overview of their personal ro les and responsibilities
       regarding infonnation security. Specifically. it addresses what type ofinfonnation can be
       classified, who makes classification decisions, and the proper mark ings to be used when
       classified infonnation is contained in documents and media. The Guide was not
       developed, nor is intended to be, all inclusive. Rather. in instances where users of the
       Guide find it inadequate, they are advised to refer to the 32 C.F.R. Part 200 1, and other
       Information Security Oversight Office (IS00) issuances for further clarifications. SPMs
       are also to be consulted if users have questions.

       Although the Guide docs currently contain guidance on email correspondence and
       meeting notes that conforms to and meets the requirements of marking guidance provided
       by the [SOO, by December 31 , 2013, SEPS will expand upon guidance in those areas
       where this report has indicated a need for additional clarity.

   7. Reinforce to DOJ components its requirement to include the specific item number of
      the security cl ass ification guide used as the So urce of the derivative cl ass ification
      decision and clarify that tbis is necessary for up to four line items when multiple line
      Hems are used.

       Agree. SEPS will revise the DOJ National Security Information Security Classification
       Guide and infonn al l components with classification guides currently in use of this
       identification requirement via email or in a meeting prior to December 31, 20 13. SEPS
       will require components with classification guides to provide copies of this change and
       identify how this change was communicated to users of the guide.

   8. Evaluate the possibility of using automated classification tools throughout DOJ.

      Agree. SEPS believes that an automated classification tool is greatly needed \vithin the
      DOl As such, SEPS will continue to evaluate the possibility of using automated
      classification tools throughout DOJ. This is an ongoing and continuous process that
      involves 001 Office of the Chief Information Officer (OCIO) and automated
      classification tool providers. SEPS will provide an evaluation on the feasibi lity of using
      automated classification tools throughout the DOJ by December 31,2013. This
      evaluation will include expected costs and compatibi lity with ex isting systems.




                                                 65 

Memorandum for Raymond J. Beaudet                                                          Page 5
Subject: Audit of the Department of Justice's Implementation of
         National Security Information Classification Requirements

   9. Determine wh at classified infrast ruci ure enhancements a re needed fo r DOJ
       components, in particular those DOJ co mponents with fie ld offices tha t work with
       Intelligencc Community (lC) agencies, to successfully use an d share appropr iate
       types of class ified information.

       Agree. SEPS wi ll continue to research besi practices regarding classified document
       infon11ation sharing methodologies. Additional ly, if and when the IC deve lops guidance
       designed to increase classified infonnation sharing, SEPS wi ll convey to all DOJ
       components, through the SPMs, the guidance provided by the IC. SEPS wi ll also work
       with the DOJ OCIO to determine enhancements needed for an exped ited and secure
       sharing of classified information via a comprehensive classified systems infrastructure.
       SEPS, in coordination with the OCIO, wi ll provide a feasibility study by June 30, 2014,
       determining what classified enhancements are needed for DOJ components.

   10. \ Vo rk with DOJ components to enha nce class ification tra ining p rograms to ensure
       t bal a ll personn cl a re a wa re of policies, procedures, and r eq uirements fo r
       classify ing na tional security infor ma tion.

       Agree. This is a continuous process within the Department. As mentioned in
       Recommendation 5, SEPS will convene a security education working group no later than
       November 15,2013 to evaluate training requ irements, standards, and delivery methods.

   11. Establis h a policy for DO J co mponents in tbe Intelligence Comm unity to alert SEPS
       to tbe cr eation a nd op er ation of a SAP within OOJ .

      Agree. SEilS is in the process of reviewing and revising Chapter 11 of the SPOM
      entitled "Special Access Programs." Once this review and revi sion is complete, the
      Department Security Officer will noti fy Department components of the reporting
      requirements pertaining to Special Access Programs. SEPS plans to have the policy
      revision and accompanying notificat ion completed prior to March 28, 2014.

   12. Evalu a te its oversight of the self-in spcctions process to ens ure tha t 00.1 prov ides
       r eliab le infor mation in its reports to NARA ' s Information Security Oversight
       O ffi ce.

      Agree. SEPS provided self-inspection training to the SPMs and component
      representatives in May 2013. The training included an overview of the self-inspection
      requirements and a thorough review of the self-inspection check list. Self-inspection
      results and check lists from 20 12 were provided to the SPMs in order to assist with the
      2013 data call . SEPS conveyed its expectations fo r the components to coordi nate with
      offices world-wide to obtain accurate data and to also develop internal se lf-inspection
      programs to be conducted semi-annually, at a minimum.




                                                66 

Memorandum for Raymond J. Beaudet                                                         Page 6
Subject: Audit of the Department of Justice' s Implementation of
         National Security lnformation Classification Requirements

       SEPS continues to work closely with component representatives throughout the 1500
       self-inspection data call process to cnsure accurate information is submitted. This is
       accomplished by detai led telephone calls, e-mails, and meetings with representati ves
       addressing the checklist requirements. If the component believes the self-inspection
       program does not appl y, SEPS coordi nates with the appropriate officials 10 verify the
       validity in their response and further coord ination and education is provided to the
       component if the program does apply. Each submission is also thoroughly reviewed and
       analyzed, taking into account the degree in wh ich the component handles classified
       infonnation.

       For the 2013 self-inspection data call. SEPS will take the necessary steps 10 ensure all
       submissions are complete and accurate as possible. SEPS will thoroughly analyze each
       response and any areas of discrepancy will be validated with the submitting component.
       Additionally, component SPMs wi ll be required to state that their submissions to the
       self-inspection data call are as accurate as possible to the best of their knowledge.

   13. Review DOJ component's procedures for reporting compromises of classified
       information and reinforce to Security Programs Managers the importa nce of
       reporting compromises of classified informa tion to SEPS.

       Agree. The reponing of securi ty incidents is reviewed by SEPS in coordination with the
       DOJ' s Security Operations Center (JSOC). This process involves an automated e-mail
       noti fication fro m JSOC and a SEPS representative whenever a cl assified incident is
       reponed by the components. Each incident is individually evaluated fo r fu nher SEPS
       action.

       An SPM training session for security incident reponing will be scheduled during FY
       2014 and will reinforce the imponance of reponing the compromise of classified
       infonnation. Representatives of SEPS have individually met with the SPM staff for the
       FBI (most recently August 21 . 2013). USMS (July 9. 2013). and ATF (July 18. 2013) 10
       reinforce the imponance of reponing compromises of classi fied infonnation. Lastly,
       SEPS will draft a Department-wide instruction mandating incident report ing
       requirements to further reinforce the importance of reporting compromises of classified
       infonnatio n. It is SEPS intent to have this instruction drafted by June 30, 20 14, as this
       wi ll involve in depth coordination with component SPMs and the DOJ OCIO.




                                               67 

Memorandum for Raymond J. Beaudet                                                         Page 7
Subject: Audit of the Department of Justicc's Implementation of
         Nationa! Security lnfannation Classification Requirements

   14. Incorporate in the SPOM tbe procedures DOJ components arc required to follow
       when transferring ownership of classified information and the requirements SEPS
       must use to ensure that components follow this protocol.

       Agree. SEPS will update the SPOM or send out a policy memorandum to reOeet
       language contained in 32 CFR Part 200 1 by December 31, 2013. Transferring ownership
       of records, classified and unclassified is the responsibility of component records officers.
       44 U.S.C. 2908 states that the Archivist of the United States shall promulgate regulations
       governing the transfer of records from the custody of one executive agency to that of
       another; and 36 CFR Part 123 1 provides regu lations that apply to records officers
       transferring records from the custody of one executive agency to another.

I am committed to a strong and effecti ve ciassification management program, both in tenns of
improving our guidance and in tenns of having DOJ components ensure their own classification
actions are being correctly perfonned.

I appreciate ine opportunity to comment on the repon and convey the steps being taken to
implement your recommendations. Should you have any questions or require add itional
information, please contact James L. Dunlap, Department Security Officer, at (202) 514-2094.




                                               68 

                                                            APPENDIX IV 


              OFFICE OF THE INSPECTOR GENERAL 

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


       The OIG provided a draft of this audit report to the Justice
Management Division (JMD). JMD’s response is incorporated in Appendix III
of this final report. The following provides the OIG analysis of the response
and summary of actions necessary to close the report.

Recommendation Number:

1.	   Resolved. JMD concurred with our recommendation to explain to DOJ
      components the importance of reducing the number of Original
      Classification Authority (OCA) officials and have Department of Justice
      (DOJ) components re-examine their number of OCA officials. JMD
      stated in its response that the Security and Emergency Planning Staff
      (SEPS) will continue to work with DOJ components to ensure that OCA
      delegations are limited to the minimum necessary to administer
      Executive Order 13526, as required by the Security Program Operating
      Manual (SPOM). In addition, the Department Security Officer will
      notify all DOJ Security Programs Managers (with delegated OCA
      officials) of the importance of reducing the number of OCA officials and
      will instruct the components to re-examine their OCA delegations for
      possible reductions.

      This recommendation can be closed when we receive evidence that
      SEPS has provided instruction to DOJ components on the importance
      of limiting their number of OCA officials and that DOJ components
      have re-examined their OCA delegations.

2.	   Resolved. JMD concurred with our recommendation to review all DOJ
      security classification guides and work with Security Programs
      Managers and OCA officials to identify and reduce redundancies to
      ensure that instructions are clear, precise, consistent, and provide
      derivative classifiers with sufficient information to make accurate
      classification decisions. JMD stated in its response that SEPS is
      currently working with the National Security Division and the United
      States Marshals Services (USMS) to ensure that the DOJ National
      Security Information Security Classification Guide is updated and
      revised to meet the requirements and needs of those components. In
      addition, JMD stated that SEPS will establish a Security Classification
      Guide Working Group to review and resolve issues in all DOJ security
      classification guides.


                                     69 

      This recommendation can be closed when we receive evidence that
      SEPS has updated the DOJ National Security Information Security
      Classification Guide to include National Security Division and USMS
      classification requirements. In addition, please provide evidence that
      SEPS, in coordination with the Security Classification Guide Working
      Group, reviewed and resolved security classification guide issues,
      including redundancies and inconsistent instructions.

3.	   Resolved. JMD concurred with our recommendation to work with DOJ
      component Security Programs Managers to ensure that OCA officials
      understand the difference between original and derivative classification
      decisions and properly mark classified information according to the
      proper requirements of the classification decisions. In its response,
      JMD stated that OCA officials are required to receive annual National
      Security Information training and review the “DOJ Guide for Original
      Classification Authorities,” both of which include information on
      classification marking requirements and the difference between
      original and derivative classification decisions. In addition, JMD stated
      that SEPS will ensure that DOJ OCA officials have completed the
      annual training requirements. JMD further stated that SEPS will
      require DOJ OCA officials to formally acknowledge that they
      understand the difference between original and derivative classification
      decisions and how to properly mark classified information.

      This recommendation can be closed when we receive evidence that all
      OCA officials have received National Security Information training and
      have provided the acknowledgement that they understand the
      difference between original and derivative classification decisions and
      how to properly mark classified information.

4.	   Resolved. JMD concurred with our recommendation to ensure that
      Office of the Director of National Intelligence’s (ODNI) Originator
      Controlled (ORCON) specific training is promulgated to DOJ
      components once it is issued and to coordinate with the Drug
      Enforcement Administration (DEA) Security Programs Manager and
      officials representing all DEA entities using the ORCON control
      markings to ensure that DEA’s use of dissemination control markings is
      appropriate. In its response, JMD stated that as members of the
      Intelligence Community, the Federal Bureau of Investigation’s (FBI)
      National Security Branch and DEA’s Office of National Security
      Intelligence are required to report to ODNI on their use of ORCON.
      JMD further stated that ODNI is developing training that will address
      the proper use, application, safeguarding, dissemination process, and

                                      70 

      derivative use of the ORCON marking. The FBI National Security
      Branch and the DEA Office of National Security Intelligence will be
      required to take this training. JMD further explained that once ODNI
      develops the ORCON marking training, SEPS will evaluate the training
      to determine if it will implement the training or coordinate with ODNI
      to develop more appropriate ORCON-specific training for DOJ’s general
      audience, including the DEA.

      This recommendation can be closed when we receive evidence that
      SEPS has either implemented ODNI’s ORCON-specific training for DOJ
      components or developed a more appropriate ORCON-specific training
      for DOJ components. In addition, please provide evidence that SEPS
      has coordinated with the DEA Security Programs Manager and officials
      representing all DEA entities using the ORCON control markings to
      ensure that DEA’s use of dissemination control markings is
      appropriate.

5.	   Resolved. JMD concurred with our recommendation to ensure that all
      DOJ components are aware of and understand how to apply
      classification resources and markings, in particular, security
      classification guides, the Controlled Access Program Coordination
      Office (CAPCO) manual, and required Foreign Intelligence Surveillance
      Act (FISA) specific dissemination controls, as appropriate. In its
      response, JMD stated that SEPS will establish a Security Education
      Working Group, comprised of DOJ component Security Programs
      Managers, to evaluate training requirements, standards, and delivery
      methods. JMD further stated that SEPS will disseminate the revised
      training requirements and standards to ensure DOJ components are
      aware of and understand how to apply classification resources and
      markings.

      This recommendation can be closed when we receive evidence that
      SEPS has developed and disseminated to DOJ components training
      requirements and standards on how to apply classification resources
      and markings, in particular, security classification guides, the CAPCO
      manual, and required FISA-specific dissemination controls.

6.	   Resolved. JMD concurred with our recommendation to review the
      DOJ Marking Classified National Security Information Guide and
      incorporate comprehensive instruction for marking all types of
      classified products, including e-mail correspondence and meeting
      notes. In its response, JMD stated that the DOJ Marking Classified
      National Security Information Guide was not developed to be all
      inclusive. However, JMD stated that SEPS will expand upon the

                                     71 

      guidance in the DOJ Marking Classified National Security Information
      Guide for marking classified e-mail correspondence and meeting notes.

      This recommendation can be closed when we receive evidence that
      SEPS has provided comprehensive instruction for marking all types of
      classified products, including e-mail correspondence and meeting
      notes.

7.	   Resolved. JMD concurred with our recommendation to reinforce to
      DOJ components its requirement to include the specific item number of
      the security classification guide used as the source of the derivative
      classification decision and clarify that this is necessary for up to four
      line items when multiple line items are used. In its response, JMD
      stated that SEPS will revise the DOJ National Security Information
      Security Classification Guide and inform all components of this
      requirement. In addition, JMD stated that SEPS will require DOJ
      components with security classification guides to provide copies of this
      change and identify how this change was communicated to users of
      the component-specific security classification guides.

      This recommendation can be closed when we receive evidence that
      SEPS has revised the DOJ National Security Information Security
      Classification Guide to include the item number identification
      requirement. In addition, please provide evidence that this
      requirement was included in all DOJ security classification guides and
      communicated to the users of those security classification guides.

8.	   Resolved. JMD concurred with our recommendation to evaluate the
      possibility of using automated classification tools throughout DOJ.
      JMD stated in its response that SEPS will coordinate with DOJ’s Office
      of the Chief Information Officer and automated classification tool
      providers to evaluate the feasibility of using automated classification
      tools throughout DOJ.

      This recommendation can be closed when we receive evidence that
      SEPS has conducted an evaluation on the feasibility of using
      automated classification tools throughout DOJ.

9.	   Resolved. JMD concurred with our recommendation to determine
      what classified infrastructure enhancements are needed for DOJ
      components, in particular those DOJ components with field offices that
      work with Intelligence Community agencies, to successfully use and
      share appropriate types of classified information. In its response, JMD
      stated that SEPS will research best practices regarding classified

                                      72 

     document information sharing methodologies. Additionally, JMD
     stated that SEPS will work with DOJ’s Office of the Chief Information
     Officer to determine enhancements needed for a comprehensive
     classified systems infrastructure to expedite the sharing of classified
     information. SEPS will provide a feasibility study regarding these
     enhancements.

     This recommendation can be closed when we receive evidence that
     SEPS has identified and communicated to DOJ components classified
     information sharing best practices. In addition, please provide
     evidence that SEPS conducted an evaluation of DOJ’s classified
     systems infrastructure to determine what enhancements are needed
     for DOJ components to successfully use and share appropriate types of
     classified information.

10.	 Resolved. JMD concurred with our recommendation to work with DOJ
     components to enhance classification training programs to ensure that
     all personnel are aware of policies, procedures, and requirements for
     classifying national security information. In its response, JMD stated
     that SEPS will establish a Security Education Working Group,
     comprised of Security Programs Managers from each DOJ component,
     to evaluate training requirements, standards, and delivery methods.

     This recommendation can be closed when we receive evidence that
     SEPS has established the Security Education Working Group and
     enhanced classification training programs to ensure that all personnel
     are aware of policies, procedures, and requirements for classifying
     national security information.

11.	 Resolved. JMD concurred with our recommendation to establish a
     policy for DOJ components to alert SEPS to participation in Special
     Access Programs that are overseen by the Intelligence Community. In
     its response, JMD stated that SEPS will review and revise Chapter 11
     of the SPOM entitled “Special Access Programs.” In addition, JMD
     stated that once SEPS completes the revisions, the Department
     Security Officer will notify DOJ components of the reporting
     requirements pertaining to Special Access Programs.

     This recommendation can be closed when we receive evidence that
     SEPS has revised the SPOM to include a policy for DOJ components to
     alert SEPS to participation in Special Access Programs that are
     overseen by the Intelligence Community. In addition, please provide
     evidence that the Department Security Officer has notified DOJ
     components of the new reporting requirements.

                                     73 

12.	 Resolved. JMD concurred with our recommendation to evaluate its
     oversight of the self-inspections process to ensure that DOJ improves
     the reliability of information in its reports to NARA’s Information
     Security Oversight Office. In its response, JMD stated that in
     May 2013, SEPS provided self-inspection training to DOJ component
     representatives and Security Programs Managers. This training
     included an overview of the self-inspection requirements and a
     thorough review of the self-inspection checklist. In addition, JMD
     stated that SEPS will take the necessary steps to help ensure the
     validity and completeness of component-submitted self-inspection
     data. Moreover, JMD stated that SEPS will also require component
     Security Programs Managers to state that their submissions of self-
     inspection data are as accurate as possible.

     This recommendation can be closed when we receive evidence that
     SEPS has conducted self-inspection training with DOJ component
     Security Program Managers and representatives. In addition, please
     provide evidence that SEPS conducted a thorough review of the
     FY 2013 self-inspection submissions and coordinated with DOJ
     components to verify the validity and completeness of the information.

13.	 Resolved. JMD concurred with our recommendation to review DOJ
     component’s procedures for reporting compromises of classified
     information and reinforce to Security Programs Managers the
     importance of reporting compromises of classified information to SEPS.
     In its response, JMD stated that during July and August 2013, SEPS
     representatives met with security personnel at FBI, USMS, and the
     Bureau of Alcohol, Tobacco, Firearms and Explosives to reinforce the
     importance of reporting compromises of classified information.
     Moreover, JMD stated that during FY 2014, SEPS will conduct a
     training session for all DOJ Security Programs Managers to reinforce
     the importance of reporting the compromise of classified information.
     In addition, JMD stated that SEPS will coordinate with Security
     Programs Managers and the DOJ Office of the Chief Information Officer
     to issue a Department-wide instruction mandating incident reporting
     requirements.

     This recommendation can be closed when we receive evidence that
     SEPS has reviewed DOJ components’ procedures for reporting
     compromises of classified information and reinforced to Security
     Programs Managers the importance of reporting compromises of
     classified information to SEPS.


                                    74 

14.	 Resolved. JMD concurred with our recommendation to incorporate in
     the SPOM a reference to the procedures DOJ components are required
     to follow when transferring ownership of classified information. In its
     response, JMD stated that SEPS will update the SPOM or send out a
     policy memorandum to reflect language discussing the transferring of
     ownership of records language contained in 32 C.F.R. Part 2001.

     This recommendation can be closed when we receive evidence that
     SEPS has either updated the SPOM or sent out a policy memorandum
     discussing the procedures for DOJ components to follow when
     transferring ownership of classified information.




                                     75 

